<html>
<title> - EDUCATION IN THE NATION: EXAMINING THE CHALLENGES AND OPPORTUNITIES FACING AMERICA'S CLASSROOMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   EDUCATION IN THE NATION: EXAMINING 
                    THE CHALLENGES AND OPPORTUNITIES 
                      FACING AMERICA'S CLASSROOMS 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 10, 2011

                               __________

                            Serial No. 112-3

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-229 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                Mark Zuckerman, Minority Staff Director

























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 10, 2011................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Bennett, Hon. Tony, Ph.D., Indiana Superintendent of Public 
      Instruction................................................     8
        Prepared statement of....................................    11
    Coulson, Andrew J., director, Center for Educational Freedom, 
      Cato Institute.............................................    17
        Prepared statement of....................................    21
    Keegan, Lisa Graham, founder, Education Breakthrough Network.    13
        Prepared statement of....................................    15
    Mitchell, Ted, president and CEO, Newschools Venture Fund....    23
        Prepared statement of....................................    25


                   EDUCATION IN THE NATION: EXAMINING
                    THE CHALLENGES AND OPPORTUNITIES
                      FACING AMERICA'S CLASSROOMS

                              ----------                              


                      Thursday, February 10, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Hunter, 
Roe, Thompson, Walberg, DesJarlais, Hanna, Rokita, Bucshon, 
Gowdy, Barletta, Roby, Miller, Kildee, Andrews, Scott, Woolsey, 
Hinojosa, Tierney, Kucinich, Wu, Holt, Davis, Grijalva, Bishop, 
Loebsack, and Hirono.
    Also present: Representative Polis.
    Staff present: James Bergeron, Director of Education and 
Human Services Policy; Kirk Boyle, General Counsel; Casey 
Buboltz, Coalitions and Member Services Coordinator; Daniela 
Garcia, Professional Staff Member; Jimmy Hopper, Legislative 
Assistant; Amy Raaf Jones, Education Policy Counsel; Angela 
Jones, Executive Assistant; Barrett Karr, Staff Director; Ryan 
Kearney, Legislative Assistant; Brian Melnyk, Legislative 
Assistant; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Mandy Schaumberg, Oversight Counsel; Linda Stevens, 
Chief Clerk/Assistant to the General Counsel; Kate Ahlgren, 
Minority Detailee, Education; Tylease Alli, Minority Hearing 
Clerk; Jody Calemine, Minority General Counsel; Jamie Fasteau, 
Minority Senior Education Policy Advisor; Sophia Kim, Minority 
Legislative Fellow, Education; Brian Levin, Minority New Media 
Press Assistant; Kara Marchione, Minority Senior Education 
Policy Advisor; Megan O'Reilly, Minority Labor Counsel; Helen 
Pajcic, Minority Education Policy Advisor; Julie Peller, 
Minority Deputy Staff Director; Alexandria Ruiz, Minority 
Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Minority Press Secretary; and Mark 
Zuckerman, Minority Staff Director.
    Chairman Kline [presiding]. A quorum being present, the 
Committee on Education and the Workforce will come to order. 
Good morning, everybody.
    Welcome to our witnesses and to our guests.
    There are few issues more important to the strength of the 
nation's economy than education. In most cases, an individual's 
success in the workforce depends upon his or her success in the 
classroom. Each month, the national unemployment data reflect 
this reality. While today 9 percent of the workforce is 
unemployed, over 14 percent of adults without a high school 
diploma are looking for a job.
    The numbers are more startling when compared to college 
graduates, who are currently experiencing an unemployment rate 
of over 4 percent. The challenges brought on by an inadequate 
education aren't just reserved for the unemployed. They extend 
to those with a job as well.
    In 2009, workers without a high school diploma earned less 
than $23,000, while workers with a bachelor's degree earned 
nearly 3 times that amount. These statistics remind us of the 
challenges facing workers who do not succeed academically. 
Without a doubt, education is critical to the strength of 
America's workforce and economy.
    That is why the current state of our nation's education 
system is so troubling. Only 69 percent of students earn their 
high school diploma. According to the nation's report card, an 
eighth grade student has only a 30 percent chance of being able 
to read at grade level.
    Reading and math scores for teens on the verge of 
graduation remain largely unchanged since 1973. Students who do 
graduate are often unprepared to compete in the workforce. 
Employers continue to express their concerns that new workers 
too often lack basic skills in reading, writing and math.
    As we consider these disturbing trends, we can't ignore 
that over the last 45 years, the federal government has become 
increasingly involved in the day-to-day operation of our 
schools. We have all heard a teacher or parent describe how 
rules imposed by Washington often stifle innovative solutions 
taking place in the classroom or undermine the freedom to 
choose a school that best fits a child's needs.
    We can no longer accept the status quo that says Washington 
has all the answers and more money will fix a broken education 
system. Since 1980, federal spending on education has increased 
by 425 percent, yet student achievement has failed to improve. 
Clearly, the current system isn't working. It is time we stop 
measuring our commitment to education solely by the dollars we 
spend.
    The good news is that the tide is turning. Dedicated 
reformers, concerned citizens and gifted filmmakers have 
sparked a debate that is spreading across the country. Their 
efforts have awakened a desire for a new approach to education 
in the country. State and local communities are moving forward 
with innovative solutions to improve accountability, parental 
involvement, results-based hiring and school choice.
    Washington should not stand in the way of these and other 
meaningful reforms that improve the quality of education for 
our children. That is why we are here today. Congress must 
understand the challenges facing our education system, hear the 
concerns of state and local leaders intimately involved with 
what goes on in the classroom and begin to chart a different 
course that ensures the innovation and accountability being 
driven now at the local level can succeed.
    I look forward to hearing from our witnesses and will now 
yield to the ranking member, Mr. Miller, for his opening 
statement.
    [The statement of Mr. Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    A quorum being present, the Committee on Education and the 
Workforce will come to order.
    Good morning and welcome to our witnesses and guests.
    There are few issues more important to the strength of the nation's 
economy than education. In most cases, an individual's success in the 
workforce depends upon his or her success in the classroom.
    Each month the national unemployment data reflect this reality. 
While today 9 percent of the workforce is unemployed, 14.2 percent of 
adults without a high school diploma are looking for a job. The numbers 
are more startling when compared to college graduates, who are 
currently experiencing an unemployment rate of 4.2 percent.
    The challenges brought on by an inadequate education aren't just 
reserved for the unemployed; they extend to those with a job as well. 
In 2009, workers without a high school diploma earned less than 
$23,000, while workers with a bachelor's degree earned nearly three 
times that amount. These statistics remind us of the challenges facing 
workers who do not succeed academically. Without a doubt, education is 
critical to the strength of America's workforce and economy.
    That is why the current state of our nation's education system is 
so troubling. Only 69 percent of students earn their high school 
diploma. According to the Nation's Report Card, an eighth grade student 
has only a 30 percent chance of being able to read at grade level. 
Reading and math scores for teens on the verge of graduation remain 
largely unchanged since 1973. Students who do graduate are often 
unprepared to compete in the workforce. Employers continue to express 
their concerns that new workers too often lack basic skills in reading, 
writing, and math.
    As we consider these disturbing trends, we can't ignore that over 
the last 45 years the federal government has become increasingly 
involved in the day to day operations of our schools.
    We have all heard a teacher or parent describe how rules imposed by 
Washington often stifle innovative solutions taking place in the 
classroom or undermine the freedom to choose a school that best fits a 
child's needs.
    We can no longer accept the status quo that says Washington has all 
the answers and more money will fix a broken education system. Since 
1980, federal spending on education has increased by 425 percent yet 
student achievement has failed to improve. Clearly, the current system 
isn't working. It is time we stopped measuring our commitment to 
education by the dollars we spend.
    The good news is that the tide is turning. Dedicated reformers, 
concerned citizens, and gifted filmmakers have sparked a debate that is 
spreading across the country. Their efforts have awakened a desire for 
a new approach to education in the country. State and local communities 
are moving forward with innovative solutions to improve accountability, 
parental involvement, results-based hiring, and school choice. 
Washington should not stand in the way of these and other meaningful 
reforms that improve the quality of education for our children.
    That is why we are here today. Congress must understand the 
challenges facing our education system, hear the concerns of state and 
local leaders intimately involved with what goes on in the classroom, 
and begin to chart a different course that ensures the innovation and 
accountability being driven at the local level can succeed.
    I look forward to hearing from our witnesses and will now yield to 
our Senior Democratic Member, Mr. Miller, for his opening statement.
                                 ______
                                 
    Mr. Miller. Thank you for yielding. Our former member of 
this committee, our colleague, Jared Polis, from Colorado, has 
asked to sit with the committee today because of his ongoing 
interest in education, and I thank you for agreeing to have him 
sit with the committee.
    Today's hearing is our first education hearing in this new 
Congress. And I believe it is a very important one. As we look 
forward to reauthorizing the Elementary and Secondary Education 
Act, it is critical that we continue to take a look at where we 
are nationally and locally in terms of both progress we have 
made and the problems that continue to persist.
    The economic situation we are facing in this country also 
calls for us to take stock of what is going on in the 
classrooms across the nation. The children sitting in our 
classrooms today are the workforce of tomorrow. And we have 
both good and bad news to report about our public education 
system.
    The good news is that our focus and support of education 
over the last 10 years has led to real and significant 
improvements for children with academic achievement. We have 
seen increases in both reading and math scores. We have seen 
achievement gaps narrow in our elementary and middle grades 
between African-American and White students and between high 
and low-poverty communities.
    But the gaps still exists. And in some rural and urban 
communities, the achievement gap is so persistent that many of 
our children are in grave jeopardy, which many consider a 
threat to our nation and to our economy. This is a threat to 
our competitiveness and even our security.
    Of the 30 industrialized countries, the U.S. ranks 12th in 
reading literacy, 17th in science and 25th in math. The 
difference between the countries at the top of the 
international rankings and our country is that the countries at 
the top have made it a national goal to develop the best 
education system in the world.
    And I want to point out in those countries they have 
focused on all students. While our top 10 percent of students 
remain competitive with their peers internationally, the U.S. 
falls flat when it comes to educating poor and minority 
students. It is clear that our economy will not be strong if 
the education of all students is not a clear priority.
    Nearly 600,000 students dropped out from the class of 2008, 
according to the Alliance for Excellent Education. If only half 
of these students had graduated together, they would earn some 
$4.1 billion in additional wages in the course of an average 
year. And their incomes would help grow local revenues by $535 
million in an average year.
    The fate of our national economy rests with the combined 
strength of the economies of local communities. These local 
communities rely on an educated and well-trained workforce. 
More needs to change so that our students will become the next 
engineers, entrepreneurs and teachers.
    A recent study of the workforce shows that the demand for 
workers with college education will outpace supply by some 
300,000 individuals per year. By 2018, our colleges and 
universities will have produced 3 million fewer graduates than 
demanded by the workforce. The problems in our education system 
are even keeping young men and women from defending our nation. 
They don't have the reading, math and science problem-solving 
abilities to take and pass the military enlisted exam.
    So the question really is where do we go from here. This 
country is too great and has too much potential to be a second-
tier in education internationally. What our students need to 
succeed isn't a mystery.
    We took important steps forward with No Child Left Behind, 
calling on communities to be transparent about the achievement 
of all children. But much of that act is now outdated. And now 
we need to take the next steps to give greater flexibility at 
the local level in exchange for setting high goals for all 
children and less prescription at the federal level.
    We need an accountability system that works and refuses to 
let any student--any student--slip through the cracks. We must 
set high goals and achievement for all students, that includes, 
poor and minority students--we know this list well--English 
learners and students with special needs, all students in the 
United States, and provide them with challenging and rigorous 
learning environments tied to college and career-ready 
standards.
    They need creative, effective teachers to hold them to high 
goals and standards and that can adjust their teaching 
strategies as needed during the day, during the school year. 
Ten years after No Child Left Behind was enacted, the law is in 
need of major update. I am confident that we will be able to 
get this done this year. We have really no other choice but to 
do it.
    And I look forward to hearing from our witnesses of what we 
can do to improve our education system and make it easier for 
our local jurisdictions to carry out the intent of the Congress 
and the hopes of this nation. Thank you very much.
    And I want to thank the witnesses for joining us.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    Today's hearing is our first education hearing in this new Congress 
and an important one. As we look forward to reauthorizing the 
elementary and secondary education act, it is critical that
    We continue to take a look at where we are nationally and locally 
in terms of both the progress we have made and the problems that 
continue to persist.
    The economic situation we are facing in this country also calls for 
us to take stock of what is going on in classrooms across the nation. 
The children sitting in these classrooms today are our workforce of 
tomorrow.
    We have both good and bad news to report about our public education 
system.
    The good news is that our focus and support of education over the 
last ten years has lead to real and significant improvements for 
children academic achievement.
    We have seen increases in both reading and math scores. We've seen 
achievement gaps narrow in our elementary and middle grades between 
African American and white students and between high and low poverty 
communities.
    But the gaps still exist and in some rural and urban communities 
the achievement gap is so persistent that many of our children are in 
grave jeopardy--which many consider to be a threat to our nation.
    It's a threat to our competitiveness, our economy and even our 
security.
    Of 34 industrialized countries, the U.S. ranks 12th in reading 
literacy, 17th in science and 25th in math.
    The difference between the countries at the top of the 
international rankings and our country is that the countries at the top 
have made it a national goal to develop the best education system in 
the world.
    And I want to point out that those countries have focused on all 
students.
    While our top 10 percent of students remain competitive with their 
peers internationally, the US falls flat when it comes to educating our 
poor and minority students.
    It is clear that that our economy will not be strong if the 
education of ALL students is not a clear priority.
    Nearly 600,000 students dropped out from the Class of 2008, 
according to the Alliance for Excellent Education,
    If only half of these students had graduated, together they would 
earn $4.1 billion in additional wages in the course of average year.
    And their incomes would help grow local revenues by over $535 
million in an average year.
    The fate of our national economy rests on the combined strength of 
economies in local communities.
    These local economies rely on an educated and well trained 
workforce.
    More needs to change so that our students will become the next 
great engineers, entrepreneurs and teachers.
    A recent study on the workforce shows that demand for workers with 
college educations will outpace supply by 300,000 per year.
    By 2018, our colleges and universities will have produced 3 million 
fewer graduates than demanded by the workforce.
    The problems in our education system are even keeping young men and 
women from defending our nation.
    They don't have the reading, math, science and problem solving 
abilities to take and pass the military enlisted exam.
    So the question really is where do we go from here?
    This country is too great to be second tier in education.
    What our students need to succeed isn't a mystery.
    We took important steps forward with No Child Left Behind calling 
on communities to be transparent about the achievement of all children.
    And now we need to take the next steps: give greater flexibility at 
the local level in exchange for setting high goals for all children and 
less prescription at the federal level.
    We need an accountability system that works and refuses to let any 
student slip through the cracks.
    We must set high goals for all students and provide them with a 
challenging and rigorous learning environment tied to college and 
career ready standards.
    They need creative, effective teachers who hold them to high goals 
and standards and can adjust their teaching strategies when needed.
    10 years after No Child Left Behind was enacted the law is need of 
a major update.
    I am confident we will be able to get this done this year. We have 
no other choice.
    I look forward to hearing from our witnesses about what we can do 
to improve our education system.
    Thank you for joining us.
    I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. This is probably one 
of those occasions where we could just exchange each other's 
speeches. It doesn't happen often. It doesn't happen often and 
may not happen down the road. But we are united. [Laughter.]
    Mr. Miller. The negativity is so great. [Laughter.]
    Chairman Kline. All right. Pursuant to committee rule 7C, 
all committee members will be permitted to submit written 
statements to be included in the permanent hearing record. And 
without objection, the hearing record will remain open for 14 
days to allow such statements and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. And I will go through and introduce each of you 
and all of you together before we start into the testimony.
    Dr. Tony Bennett serves as the Indiana superintendent of 
public instruction, where he has pushed for drastic education 
reform. Prior to his election as superintendent, Dr. Bennett 
served as principal of Scottsburg Senior High School and spent 
nine years in the classroom as a science teacher. He also is 
one of the founders of the Chiefs for Change, a group of 
education leaders formed to promote school choice and 
performance-driven evaluations for teachers and principals.
    Ms. Lisa Graham Keegan is the founder of the Education 
Breakthrough Network, a coalition of organizations and 
individuals dedicated to promoting school choice. Over the 
years, she has advocated for conservative approaches to 
education reform, including am emphasis on standardized testing 
and school choice initiatives such as school vouchers, tuition 
tax credits, charter schools and open enrollment policies.
    Mr. Andrew J. Coulson is the director of CATO Center for 
Educational Reform. Previously, he was a senior fellow in 
education policy at the Mackinac Center for Public Policy. Mr. 
Coulson also serves on the adviser council of the E.G. West 
Center for Market Solutions in Education at the University of 
New Castle, United Kingdom and has written for several academic 
journals, including the Journal of Research in the Teaching of 
English, the Journal of School Choice and the Education Policy 
Analysis Archives and for newspapers such as the Wall Street 
Journal and the Washington Post.
    Mr. Ted Mitchell is the president and CEO of NewSchools 
Venture Fund, a non-profit philanthropic organization that 
raises private funds from education entrepreneurs to fund 
innovative K-12 projects around the country. From 2008 to 2010, 
he also served as president of the California State Board of 
Education. Prior to taking the helm at NewSchools in 2005, Mr. 
Mitchell served as president of Occidental College in Los 
Angeles, as deputy to the president at Stanford University, as 
vice chancellor and dean of the School of Education and 
Information Studies at the University of California, Los 
Angeles and as professor and chair of the Department of 
Education at Dartmouth College.
    Welcome to all of you. And it is a very distinguished 
panel. We are very happy to have all of you here.
    Just very briefly, a reminder--I know this was explained, 
but for the benefit of all, including my colleagues, who 
sometimes turn colorblind on me, you have some little boxes in 
front of you that will have lights. When you start your 
testimony, a green light will come on. And that will be on for 
4 minutes.
    It will turn yellow for a minute to give you an indication 
that it is time to start wrapping up your testimony. And then 
it will turn red. And that will indicate that the 5 minutes are 
up.
    As I promised each of you, I don't intend to gavel anybody 
down in the middle of a sentence or thought. But, please, take 
that red light as the indication that it is time to wrap that 
up. And I will just take this opportunity to remind my 
colleagues that we also will have the 5-minute rule. We will 
have 5 minutes in which to ask our questions and have them 
answered. There is some skepticism among my----
    Mr. Miller. It went pretty well yesterday.
    Chairman Kline. Well, it went pretty well yesterday, not 
exactly perfect.
    So we will start, and we will go right down the line.
    And, Dr. Bennett, you are recognized.

  STATEMENT OF TONY BENNETT, INDIANA SUPERINTENDENT OF PUBLIC 
          INSTRUCTION, INDIANA DEPARTMENT OF EDUCATION

    Mr. Bennett. Thank you. Thanks for having me today, 
Chairman Kline. It is an honor to be here. And it is an honor 
to partake in a discussion that, I think, is the most important 
discussion we have going on in our nation. And that is the 
future of our nation through the education of our children.
    When I took office in 2009, we immediately set out a very 
aggressive plan in Indiana that said the academic achievement 
and career preparation of all Indiana students would be the 
best in the United States and on par with the most competitive 
countries around the world. And we then had to do something a 
little different. We had to evaluate the landscape.
    And I think I have a slide that is for your reference that 
is here that I am going to just very--give a quick side 
comment. Our staff kind of tripped me up. I refer to this 
usually as Indiana's education mess. They didn't like the name, 
so they put Indiana's education challenges. They thought you 
would like it better.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    But this gives all of you an idea of what we were looking 
at, what we have been looking at in Indiana. And I think there 
are some very stark realities here. I think when you evaluate 
that picture, you are going to see academic achievement issues. 
You are going to see cultural issues. You are going to see 
structural issues that we believe we have to address.
    Now, the reason I bring that to you is when you talk about 
a system that has academic achievement problems, cultural 
problems and structural problems, something should come to 
mind. We have to have comprehensive reform.
    In education for many years, we have tried to do this thing 
we called reform by doing one thing at a time. And it hasn't 
worked. It has given us minimal results. So we believe to 
approach this issue and to approach the complexity of these 
issues, we must do this with comprehensive education reform in 
Indiana.
    And so, if we can go to the next slide, very quickly, you 
will see that in Indiana we will create and promote a state-
wide culture of academic excellence in which--and we have this 
actually on a scoreboard in the state house atrium and in a 
scoreboard in my office with our term, ``winding down in days, 
hours, minutes and seconds,'' that says 90 percent of our 
students will pass both the English language arts and math 
portions of the state's examinations. Twenty-five percent of 
our graduates will graduate with advanced placement 
international baccalaureate or dual credit, and 90 percent of 
our students will graduate with a meaningful high school 
diploma.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    So we have that, again, on a scoreboard with all our 
critical statistics leading to that that shows us the sense of 
urgency with which we must address those issues you saw on the 
first slide. So let's talk for a moment about what we have done 
about comprehensive education reform.
    First of all, Indiana today--it was announced yesterday--
leads the nation in access to advanced placement exams with 
more minority students taking those exams than ever before. We 
also reformed teacher licensing, making it easier for mid-
career changers to come into the field of education, giving 
more flexibility to our teachers in terms of professional 
development leading to relicensure.
    We developed a growth model with the help of Colorado, 
where we are able to show how students grow year-over-year. And 
we have a transparent way of showing school performance growth. 
And in the future, parents will be able to see the growth of 
the teachers their children will have. And today, parents will 
be able to see the growth of their own children year-over-year.
    And finally, sadly, in 2011, at the end of this school 
year, the state will be prepared to potentially intervene with 
20 of Indiana's chronically under-performing schools. We have 
more than 24,000 Hoosier students in these schools. We have a 
very aggressive reform agenda where we will put an emphasis on 
teacher quality.
    We will give schools flexibility and hold them very 
accountable. I believe accountability without flexibility is 
punishment. And we have to give folks flexibility to meet high 
standards and be competitive.
    And finally, we want to give all children options, options 
of charter schools, non-government schools to pursue 
educational opportunities that meet their needs. We also want 
to cut out the red tape. We have a red tape waiver in our 
legislation right now to remove red tape. And we would like to 
see the federal government do something similar. Set some 
guidelines. Set high expectations. Give us the resources. And 
hold us accountable by taking those resources away if we don't 
hit the target.
    And finally, let's talk about funding because this is a 
very important piece. There is another slide here.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Kline, you mentioned the federal investment in 
education. This is Indiana state investment. And as you can 
see, our ISTEP, which is our state standardized testing, is 
flat over the last 10 years. I think there is a very important 
2 points here. In 2009, you actually see the line dip when the 
line for funding goes up. We cut our budget by $300 million in 
2010, and the red line went up.
    What that tells us is in Indiana, we are answering the 
question, not how you get more money to education, but how you 
get more education for your money. And we are doing that by 
starting a discussion where we marry fiscal policy and 
education policy. Far too frequently, we have discussions about 
how to fund education without having discussions about what we 
expect from education.
    So we believe that, again, we would love to see a situation 
where the federal government allows us to have a set of 
guidelines, gives us incredible flexibility, puts high 
expectations on us and holds us very accountable if we don't 
meet those expectations. Thank you very much.
    [The statement of Mr. Bennett follows:]

            Prepared Statement of Hon. Tony Bennett, Ph.D.,
              Indiana Superintendent of Public Instruction

    When I took office as Indiana's elected Superintendent of Public 
Instruction in 2009, I set out to provide all Hoosier students a world-
class education that would prepare them for the demands of our 
competitive, global economy. I realized quickly our students had a lot 
to overcome. The state of education in our state, as in many others, is 
challenged. In Indiana, more than 15,000 third graders can't pass the 
English/Language Arts portion of our state assessment. One in four 
students fails to graduate high school with a meaningful high school 
diploma, and of those who do graduate, 25 percent require college 
remediation. Too few of our students take the kind of rigorous high-
school coursework needed to compete for seats in our top universities; 
only 12 percent are passing Advanced Placement exams.
    My first step upon taking office was to set clear, measureable and 
high expectations for student achievement. By 2013, 90 percent of 
Indiana students will pass both the English/Language Arts and Math 
portions of our state's assessment--the ISTEP+. Twenty-five percent of 
all high school graduates will receive a score of 3, 4 or 5 on at least 
one Advanced Placement exam, a 4 or higher on an International 
Baccalaureate exam, or receive the equivalent of three semester hours 
of college credit during their high school years. Finally, 90 percent 
of Indiana students will graduate from high school with a meaningful 
diploma. Two scoreboards, one in my office and one on display for 
Statehouse visitors, track our progress toward attaining these 
aggressive goals.
    We are forging a bold path to tackle Indiana's education challenges 
head-on and to achieve our 90-25-90 goals for Indiana students. We 
start with the principle that every decision we make must be focused on 
doing what is best for our school children, and that has meant engaging 
in difficult conversations about the long-standing practices that for 
too long have favored adults over children. Second, we realize we 
didn't find ourselves in this situation overnight; there was no one 
policy or event responsible for degrading our system of schools. It 
came as a result of years of complacency, inaction on various complex 
difficulties, and fear of change. Therefore, our plan to address it 
must be comprehensive. No single solution will give all students the 
high-quality education they deserve. Our approach is to attack all of 
the problems simultaneously from multiple angles. We know that's what 
it will take to transform our current system into one that expects and 
supports excellence for all students.
    Our education reform agenda, which is currently before our General 
Assembly, reflects this comprehensive approach--and it will require an 
all-hands-on-deck commitment to succeed. We are confident our 
legislators will take advantage of this historic opportunity to answer 
the call to help Indiana's students, and we are encouraged by the 
bipartisan support we are receiving from state and national leaders.
    The agenda is bolstered by our successful efforts to improve 
Indiana's schools over the past two years. We have made tremendous 
gains despite the nation's trying economic landscape. Indiana leads the 
nation in access to advanced placement exams with more minority 
students than ever before taking the exams. We have seen more students 
graduate from high school and pass our state assessments. We have also 
revamped the way teachers gain and renew their licenses in Indiana to 
better reflect student needs, ensure content-area expertise and allow 
highly-qualified career changers more pathways to teach in our highest 
need communities.
    We have rolled out Indiana's Growth Model, and it is the 
centerpiece of many of our reform efforts. It allows us, for the first 
time, to measure how much students learn over the course of a school 
year--no matter their achievement level, income, race or ZIP code. 
Perhaps most important, it gives us a more accurate view of which 
teachers are driving the biggest academic gains in the classroom. 
Often, the most remarkable success stories are happening in our most 
disadvantaged communities. Teachers who were never recognized by a 
system that looked only at test scores are standing out with Indiana's 
Growth Model for moving kids 1.5 to 2.5 grade levels in a single school 
year. While we understand this new tool won't solve all our problems, 
it has been a game-changer in the way we measure academic success in 
our state.
    We are taking the first steps right now to intervene in our 
chronically low-performing schools, where more than 24,000 Hoosier 
students are doomed to educational environments that fail to provide 
them even the most basic skills they will need to enter college or the 
workforce. Currently, 20 schools could face state takeover at the 
beginning of the 2011-12 school year.
    Looking ahead, we believe this is the moment for Indiana to emerge 
as a leader for other states to follow when it comes to innovative and 
aggressive education initiatives that put student success first--and 
our three-part ``Putting Students First'' agenda is the type of 
comprehensive reform plan Indiana's students need.
    The three pillars of Indiana's ``Putting Students First'' education 
agenda are the following:
    1. Indentify and reward great teachers and principals by giving 
local leaders flexibility to promote excellence. Legislation before our 
general assembly this session would require local corporations to be 
centers of innovation that develop fair, multi-faceted, annual 
evaluations for teachers and principals that will clearly differentiate 
effectiveness and consider student performance and growth. Once in 
place, these evaluations should be used to determine pay increases, 
classroom placement and professional development requirements.
    2. Enforce accountability but allow local flexibility to turn 
around our persistently low-achieving schools. Our proposed legislation 
creates a clear roadmap for turning around our lowest achieving schools 
by outlining procedures for state intervention and giving school 
operators at our worst schools the freedom to make the bold moves 
necessary for swift, dramatic improvement. The legislation would also 
create a ``Parent Trigger'' that would allow a majority of students' 
parents in a school to petition for early state intervention in a 
failing school.
    3. Give all families a voice and high-quality educational options 
for their children. Legislation is currently before our General 
Assembly to enforce stricter accountability for charter schools, create 
more quality charter authorizers, and create a needs-based opportunity 
scholarship for families to take a percentage of state funding to 
educate their children in participating non-government schools. The 
legislation would also create a ``Parent Trigger'' that would allow a 
majority of students' parents in a school to petition for conversion to 
a charter school at any time.
    What's more, Indiana students deserve an education system that 
demands academic results and isn't focused on complying with outdated 
and unnecessary laws and regulations. I believe part of the reason our 
students are falling behind is a lack of appropriate leadership at the 
state and federal level. We must strike a balance between expectations, 
accountability, flexibility and support.
    As a former teacher, principal and school superintendent, I am a 
strong believer in local control. Indiana's school leaders are in a 
better position to know what's best for the students in their 
communities. They know which programs will work for the children they 
serve. They understand the cultural and economic factors unique to 
their districts, and they are in the best position to drive innovation. 
My role as state superintendent is to set high expectations for student 
performance and enforce strict accountability measures. In between, 
particularly if we are successful this legislative session, our locals 
will have full flexibility to act on behalf of their students' best 
interests.
    We will put guardrails in place to ensure quality and provide 
support, and then, we will get out of the way and let them do their 
jobs. I tell Indiana's superintendents to blame me for setting such 
rigorous goals. I don't tell them how to reach those goals, but I am 
happy to let them use me as a shield so they can do what they need to 
do for their students. I would love to see the federal government to do 
the same for states.
    Part of this must involve some deregulation. In Indiana, we have 
heard loud and clear from our superintendents too much red tape is in 
their way. This session, we're doing something about it with 
deregulation legislation. Earlier this week, Indiana's House Education 
Committee debated this legislation that would allow a school or school 
corporation to apply to our State Board of Education for a waiver of 
one or more laws or regulations that stand in their way. Just a handful 
of laws or rules would not be eligible for waiver. Applicants would be 
required to demonstrate how the waiver would help improve student 
learning.
    As a department, we are also taking a close look at the red tape we 
place on schools. For example, we recently reviewed the more than 120 
data collections we ask of local school corporations to see whether the 
data collected is focused on our top priority--student achievement--and 
that the data we collect is actually put to good use. With those 
parameters in mind, we have identified more than 30 collections that 
can be suspended or consolidated with other collections, thereby 
reducing the burden on local leaders. Now, we are looking to the 
federal government to cut through unnecessary red tape, as well, and we 
have started discussions with the U.S. Department of Education to find 
ways to do just that.
    The best way the federal government can drive improved student 
performance is by setting high expectations, enforcing strict 
accountability measures, and allowing states the flexibility to work on 
behalf of their students. In an ideal world, the federal government 
would simply say, ``Meet goals X, Y and Z. Here are some guidelines, 
but ultimately, we don't care how you get there. Figuring out your path 
to success is up to you because you know best what your students need. 
If you do not meet the goals, you will not get federal dollars.'' This 
is a new paradigm at the state and federal level, and it's one that 
keeps the interests of students at heart.
    Speaking of education dollars, that's another area where we need to 
change our thinking. We must fundamentally change the conversation from 
``How do we get more money for education?'' to ``How do we get more 
education for our money?'' Decisions we make on education spending 
cannot be made in a vacuum; they must be married with our decisions 
about education policy. We absolutely must review every spending 
decision through the lens of what will most benefit students in our 
classrooms. In Indiana, we're moving in that direction.
    For the first time in our state's history, school funding formula 
legislation will begin its journey in our House Education Committee, 
where it can be considered in relation to our education reform 
legislation, before it moves to the Ways and Means Committee. It may be 
a small step, but it sends a clear message that we need to think 
critically about the way we currently pay for education in our state. 
In tight economic circumstances, the time has never been better to have 
these discussions. More money isn't the answer to our problems. Too 
often, it's not a lack of funding or resources that keeps individuals, 
states and nations from achieving their goals; it's a lack of courage.
    And courage is exactly what Indiana is asking from its lawmakers 
this legislative session. It's also what we ask of our leaders at the 
federal level. We cannot afford to keep doing what we've been doing. 
Indiana's education challenges aren't unique; our problems reflect a 
crisis facing our entire country. Our nation's economic success and 
maintained global position depend upon our ability to gain quickly 
significant ground on the education front.
    As a man who has made educating children his life's work, I know 
from experience when you hold children to high expectations, they will 
rise to the challenge. As a school leader in southern Indiana, I set 
similar high expectations for my teachers and staff. And they never let 
me down. The same is holding true now, as school corporations across 
our state are innovating and driving incredible gains in student 
achievement.
    I pledge this to you: if you set the bar high for states, put 
guardrails in place to ensure quality, provide support, enforce 
accountability, give states the flexibility to achieve those goals, and 
then get out of our way, we will not fail America's school children. We 
will not fail to prepare our nation's future leaders. But you must act 
now on behalf of all children. We cannot risk leaving another 
generation of students ill-prepared to compete with their international 
peers. It is a moral imperative for all of us to act on behalf of 
students and leave adult comforts and concerns aside to do what is 
right for them.
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Ms. Keegan?

      STATEMENT OF LISA GRAHAM KEEGAN, FOUNDER, EDUCATION 
                      BREAKTHROUGH NETWORK

    Ms. Keegan. Thank you, Mr. Chairman and members. It is an 
honor to be here. What I would like to do is talk a little bit 
about the individuals who are actually creating the 
transformation in education in the country.
    The path or the challenge before us is enormous. And Mr. 
Miller described it well. It has been a long time that we have 
been focusing on it. And it can feel overwhelming until you 
look very closely at a significant transformation that is 
underway in the country, who is doing it, how they are doing 
it. And I would suggest that following their lead is the best 
course of action any of us can take at this point.
    My organization, Education Breakthrough Network, was 
actually made possible by the past 20 years. And it was made 
necessary as well because there isn't one thing that is 
happening. There is not just one thing.
    We are moving in all sorts of directions. We are moving in 
terms of school choices for public charter schools, online 
learning. Technology is driving this in credible ways. We have 
created tutoring programs, scholarship programs.
    Homeschooling has burgeoned in these past 20 years, really 
a phenomenal growth in the transformation of American 
education. And I think it is really important to understand, as 
you go about the business of updating a law that passed 10 
years ago, how different the landscape is even in these past 10 
years.
    The transformation is marked not by politics, not by a 
particular group of people. One of the things about 
Breakthrough we like best is that, I think, within 30 seconds, 
anybody in the country could see somebody they know and trust 
on that page: Democrats, Republicans, African-Americans, 
Latinos, White folks, everybody. It is quite a mix, American 
education transformation.
    What is common to it is a belief that we can and we should 
have our students be leaders academically in the world, no 
excuses, no apology, no other agenda. That has to get done. And 
these folks have been about the business of making it happen.
    The simplest description of what is happening is that 
states are moving away from simple assignment of their kids 
into schools. They are moving away from one school that is 
going to serve all needs, one set of rules that are going to 
govern all people in the school district and moving into 
specialization, most particularly, allowing educators to take 
back the leadership role that our nation started with, quite 
frankly.
    Over the past 20 years, we have lost in assignment, we have 
lost the numbers to the point that now over a third of students 
do not attend the school they are assigned to. In Arizona last 
weekend, we had an article about a school district where 75 
percent of parents are opting out of their assigned high school 
district. I would say at that point, choice has gone 
mainstream.
    And it has gone mainstream, not just for students, but for 
teachers, which is as it should be. When we started public 
education, we relied on the teacher, the teacher to start the 
school, manage the school, run the school. The teacher has 
never been anything but the most important factor in any 
school. That has never changed.
    What has changed is how effective we allowed that teacher 
to be. All sorts of illogical constraints on personnel, on what 
a teacher can do, when she can do it, or he can do it--excuse 
me, gentlemen--what they can do, with whom, hiring who, how 
they associate with each other. We assign teachers into 
schools. We don't let them choose their schools or their 
specialty.
    In 2011, in an age when specialty is everything, that seems 
illogical to me any more. And it seems illogical to the 
thousands of educators who are bringing innovation to American 
education. Teachers are fighting their way back to the front of 
this exercise.
    All over the country are organizations: The New Teacher 
Project, New Leaders for New Schools, Teach for America, The 
American Association of Educators, the American Board for 
Certifying Teacher Excellence. These are teacher-led 
organizations for teachers, bringing teachers back into 
leadership. And it has been critically important.
    Every state now is creating a way for teachers to bring 
their skills directly into the education market, for teachers 
to bring their schools to the students that they serve. It is a 
fundamental difference.
    The one thing I think is very important to talk about is, 
as you go about your business, it is always refreshing to hear 
that you hesitate to get in the way of local control. 
Unfortunately, where education is concerned, local lost out to 
control a long time ago.
    Local control looks like national organizations whose power 
far outweighs individual school board members, who are often 
the power of the interests of the local communities they are 
supposed to serve. So it is one thing to say we want this to be 
local. It is another not to recognize that local officials are 
not always free to do what they think is the right thing.
    The innovation that has happened is that teachers who have 
started schools, who have brought new technologies, who have 
seen the promise of technology or of these new pathways are 
what is local any more. And we need to make sure we can follow 
them. We asked them what is it that would help you do more of 
what you are doing. We take their advice and try to get out of 
their way.
    Thank you very much, Mr. Chairman.
    [The statement of Ms. Keegan follows:]

           Prepared Statement of Lisa Graham Keegan, Founder,
                     Education Breakthrough Network

    Mr. Chairman and Members, thank you very much for the opportunity 
to speak with you today. It is an honor.
    I am well aware that this committee needs no introduction to the 
desperate state of affairs in American education. When I had the 
privilege a few years ago to offer insights for a McKinsey report on 
our achievement gaps, I was struck by their observation that the 
economic cost of under educating our youth was best represented as a 
permanent two trillion dollar recession.
    And that analysis obviously offers only an economic barometer for a 
staggering loss of human potential. The enormity of our challenge can 
feel paralyzing, until we look very closely at the transformation 
already underway.
    The reality is that genuine shifts in attitude, policy and practice 
began twenty years ago, and are dramatically reshaping American 
education. The changes are being driven by a vast network of formally 
and informally connected education leaders; hugely talented, 
intelligent, creative and relentless. They are using every possible 
avenue available to them * * * innovative practice, new laws, new 
technologies, and disciplined recruitment * * * in order to overcome a 
frankly calcified and outdated system.
    This is not about one narrow policy, or a single set of political 
ideologies. This transformation is marked by a basic belief: our 
students can and should be leaders in academic attainment. No 
equivocation, no apology, no excuses.
    The simplest description of what is going on around the country is 
that every state is moving away from the traditional system of one 
school assignment and one set of policies that govern practice for 
everyone in a school district. While states have not yet created 
wholesale revisions to assigned public education, they have allowed and 
encouraged these moves away from it. The key to understanding education 
in America today is to understand we are already deep in the midst of 
this desperately needed transformation.
    For example, the shift from school assignment to parent choice is 
fairly radical. Nationwide, nearly one third of students no longer 
attend their ``assigned'' school. Just this week-end, Arizona's largest 
newspaper highlighted a school district in Phoenix where 75 % of 
students now opt out of their assigned school into another option. 
Instead of their assigned school, parents are choosing another district 
school out of boundary, a public charter school, a private school, an 
online school, or simply to home school.
    School choice has gone mainstream. As has teacher choice. This 
entire decades long transformation has been led by teachers and 
educators of every stripe. Finally. Again.
    When our nation first envisioned a system of public schools, the 
quality of the system lay in the hands of the school teacher. He or she 
was hired to create the school, lead the school, and manage the school. 
The effectiveness of the teacher leader has always been the most 
important determinant of success in any school.
    Over time, however, as systems began to centralize and hundred page 
contracts took the place of leadership, the role of the teacher has not 
become less important, but made less effective by illogical 
constraints. And it has been teachers who fought their way back to the 
head of this transformation.
    Nearly every state has now created a way for teachers to create and 
offer their schools to students. We now have ``franchises'' of schools 
based on a particular learning style or philosophy. Some are private, 
some are public charter schools, some are district schools. Hundreds of 
thousands of students and teachers are benefiting the distribution of 
these successful school models, be they groups like the KIPP schools, 
Uncommon Schools, or the Noble Network of schools in Chicago, or 
hundreds of other teacher-led schools across the country.
    The schools are marked by a specialization in instructional 
practice, or perhaps a focus on subject areas such as the arts or 
science and technology. These specialized schools mirror practices 
begun in magnet schools, and many of the best schools nationally are 
intra-district specialized schools. They are led by master teachers who 
want to lead, and who have the freedom to select their colleagues * * * 
who also choose them.
    States are also welcoming new learning technologies and online 
schools, with fully half the states now offering full time on-line 
schooling. And online instruction has in turn led to the creation of 
``hybrid'' schools, where technology and tradition blend to create some 
of the fastest pace growth in achievement we have seen to date. Again, 
those models were created by teachers who either created or immediately 
understood the potential of new learning technologies.
    Most importantly, this evolution was not borne of an imposed 
structure. This movement grew, and continues to grow, from the talent, 
ingenuity, and perseverance of American educators. The biggest shift we 
see is that educators themselves have created pathways that allow them 
to serve students directly.
    The energy in this movement gives its students and the nation so 
much more than simple achievement gains. The energy feeds on a belief 
in excellence, in potential, in the power of being able to contribute 
to your community. The education revolution is immediately identifiable 
not by a type of school or governance, but by its belief in the 
students it serves. And that makes all the difference. Where they are 
succeeding, we must find every way possible to help.
    And this is a critical moment for our educational transformation. 
What all of us do next will either advance or hinder acceleration in 
achievement. And while it is always refreshing to listen to national 
leaders espouse affinity for locally controlled solutions versus top-
down mandates, caution is in order. Where education is concerned, the 
most successful local action has had to develop outside the traditional 
confines of ``local control''.
    Because unfortunately, ``local'' lost out long ago in school 
districts, and ``control'' took over. School district control is 
dominated by the interests of national organizations whose power dwarfs 
that of their individual members or the communities they are meant to 
serve. And that has to be taken seriously. In a world where rapid 
improvement must be the imperative, the question is how best to break 
through illogical yet calcified structures. Or more specifically, how 
to allow those who are willing * * * to break through.
    Current school district regulations that prevent individualized 
personnel arrangements, prevent a school leader from walking in to 
observe a classroom, prohibit the use of student achievement data when 
assessing teacher performance, or prevent dismissal of clearly 
incapable teachers, are all still hallmarks of ``local control''.
    And the organizations who support those regulations do not sit 
silent when their colleagues choose to opt out and create something 
more powerful for students. It has been a battle, and the ``on the 
ground ``realities have shifted. Ironically, true local control has 
moved to schools of choice, and true teacher leadership and potential 
exists outside the teacher contracts originally intended to empower 
their work.
    Hopefully what happens now at every level, is that we focus on 
clearing the way for those who seek to excel. Sometimes it takes 
nothing more than aligning terms. About 15 years ago, the Congress took 
decisive action in support of state initiatives to proliferate public 
charter schools by defining them in federal law as local education 
agencies. That simple action not only put the schools and their 
students on equal footing for federal education grants, it enabled a 
fledgling movement to withstand the opposition of national 
organizations.
    As the transformation in schooling occurs nationwide, there will be 
many such opportunities for support. These initiatives are not top-
down, they are entrepreneurial in nearly every sense. But they fight 
traditional regulation in ways we often don't recognize until they 
explain it to us. There is potential for a serious and effective 
partnership to accelerate excellence here, albeit one that walks a fine 
balance.
    Where schools and innovative practices are proving successful, and 
where parents are seeking them in numbers that far outweigh available 
space, there is no time to waste. It's a great place to start. Let's 
start with the known cures, and allow them to flourish. We have to ask 
these leaders what it will take, and try to make sure they get it.
    Thank you.
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Mr. Coulson, you are recognized.

 STATEMENT OF ANDREW COULSON, DIRECTOR, CENTER FOR EDUCATIONAL 
                    FREEDOM, CATO INSTITUTE

    Mr. Coulson. Chairman Kline, members of the committee, 
thank you very much for the opportunity to speak with you 
today.
    For over half a century, a succession of Congresses and 
presidents has sought to do 2 things for American elementary 
and secondary education: raise overall achievement and narrow 
the gaps by income and by minority status. Roughly $2 trillion 
have been spent at the federal level since 1965 in pursuing 
these ends. In the next few minutes, I will summarize the 
results.
    Congress' first effort to raise overall achievement was the 
National Defense Education Act of 1958, which focused on 
mathematics and science, as it was a response to the Soviet 
launch of the satellite Sputnik. As you can see on figure 1, 
science scores for this period we don't have data for. But math 
scores declined between 1955 and 1960. And that decline 
accelerated after the passage of the National Defense Education 
Act.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    There is a beginning of an uptrend after 1966, which looks 
promising. But sadly, that uptrend was evanescent. It vanished 
in the coming years, as we can see in figure 2, which charts 
mathematics, science and reading scores from the earliest 
national trend data we have available from the National 
Assessment of Education Progress, along with the change, the 
percent change, in real federal spending per pupil. And that is 
adjusted for inflation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Now, obviously, looking at that chart, it is pretty 
disappointing. Is there a possibility that state and local 
spending were going down at the same time that federal spending 
was going up? Maybe that offset the increased federal 
investment. To find out, I provided figure 3, which charts 
total spending--the total cost, actually, of a K-12 public 
education in real dollars, how it is changed over time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As you can see, total spending, much like federal spending, 
has increased dramatically over the course of this period. 
Reading and science--sorry, reading and mathematics scores are 
flat over that 40-year period for students at the end of high 
school. In science, scores have declined slightly.
    Science is that little purple line at the bottom. It trails 
up in 1999. I don't know if it was because bad news is no news. 
But we stopped testing in that period of science scores at the 
time. There is some other data from a different series of 
results that also shows--it shows a decline in science from 
1995 to 2006.
    So what about the other federal goal in education at the 
elementary and secondary level, compensatory education, closing 
the gaps? We don't have data for the achievement of kids from 
different economic backgrounds. But we do have data on the 
relative performance of high school--the children of high 
school dropouts and the children of college graduates, which is 
a pretty good proxy for income.
    Those gaps at the end of high school between the kids of 
dropouts and the kids of college graduates have not changed in 
40 years. I think there is a 1 percent uptick in one of the 3 
subjects. And the other 2 are flat. It is really a 
disappointing result.
    The one area out of all these goals the federal government 
has had that has shown some improvement is some of the 
minority/White gaps. As you can see from figure 4, the gap in 
reading, for instance, between Black and White students at the 
end of high school has shrunk from its origin in 1969 or 
thereabouts. 1971, I think, is the year. But the timing of the 
gap closing does not support federal intervention as the likely 
cause.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Virtually all of the shrinkage in the gap between Black and 
White students in reading at the end of high school occurred in 
a single eight-year span from 1980 to 1988. Since that time, it 
has increased slightly. And this was a time, If you recall the 
chart on figure 2, during which federal spending had 
skyrocketed.
    So to sum up, we seem to have gotten very little for the $2 
trillion in federal education investments over the past half-
century. They do not appear to have achieved the goals they 
were set out to achieve.
    There is one notable exception to this very disappointing 
overall pattern. And that is the tiny and recently-maligned 
Washington, D.C. opportunity scholarships program. This 
program, which allows low-income students in Washington, D.C. 
to attend private schools and which costs about $7,000 per 
pupil on average, produces equal or better academic results and 
substantially better, statistically significantly better 
graduation rates than are available in the D.C. public school. 
And it does so at a quarter of the cost of D.C. public schools.
    Extending and growing that program would be a fantastic 
example for the nation. And it is something that Congress can 
do, an affirmative thing Congress can do, which would have 
tremendous benefits.
    Now, D.C. is a special case. Congress grants special power 
to Congress over the district. But it delegates to the federal 
government no national education policy powers, reserving those 
for the states and the people. Now, clearly, that 
constitutional limit has not been observed for generations. But 
in light of the evidence I have just presented, its wisdom is 
inescapable.
    Thank you. And I look forward to your questions very much.
    [The statement of Mr. Coulson follows:]

           Prepared Statement of Andrew J. Coulson, Director,
             Center for Educational Freedom, Cato Institute

    Chairman Kline, members of the Committee, thank you for inviting me 
to speak with you today. My name is Andrew Coulson and I direct the 
Center for Educational Freedom at the Cato Institute, a nonprofit, non-
partisan public policy research organization. My comments are my own, 
and do not represent any position of the Institute.
    For over half a century, a succession of Congresses and presidents 
has sought to do two things for American elementary and secondary 
education: raise overall achievement, and narrow the gaps between high- 
and low-income students as well as between minority and white students. 
The federal government has spent roughly $2 trillion on these efforts 
since 1965, adjusting for inflation.\1\
    In the next few minutes I will summarize the results of these 
efforts and their implications for federal education policy.
---------------------------------------------------------------------------
    \1\ Calculated by the author from Table no. 373 of the 2009 edition 
(latest available) of the Digest of Education Statistics, linearly 
interpolating data gaps prior to 1985 and linearly extrapolating the 
2010 value from the preceding ten years of data. The resulting figure 
is: $2,070,963,000,000, in constant 2009 dollars.
---------------------------------------------------------------------------
    Congress' first attempt to improve the quality of instruction in 
the nation's schools was the National Defense Education Act of 1958, a 
direct response to the Soviet launch of the satellite Sputnik. It was 
intended to raise mathematics and science achievement. There are no 
data on science achievement during this period to my knowledge, but we 
do have nationally representative trend data for mathematics 
performance at the end of high school, which I present in Figure 1.
    As can be seen from the chart, math scores declined slightly during 
the latter half of the 1950s, and this decline accelerated from 1960 to 
1966, after the NDEA was passed. Scores had still not recovered to 
their 1955 high point three decades later.
    While the up-trend between 1966 and 1983 looks promising, it was 
not sustained. Figure 2 charts the percent change in Math, Science, and 
Reading scores from the 1970s to the present, along with the percent 
change in real federal education spending per pupil.
    Math and Reading scores at the end of high school are unchanged 
over the past forty years, while Science scores suffered a slight 
decline through the year 1999, the last time that test was 
administered. Data from another nationally representative test series 
show a continuing decline in 12th grade Science between 1996 and 2005, 
the last year for which we have trend data.\2\
---------------------------------------------------------------------------
    \2\ National Center for Education Statistics, The Nation's Report 
Card: Science 2009, (NCES 2011--451), Institute of Education Sciences, 
U.S. Department of Education, 2011. http://nationsreportcard.gov/
science--2009/ [The ``Nation's Report Card'' is a separate set of 
nationally representative tests from the ``Long Term Trends'' set, but 
both are part of the ``National Assessment of Educational Progress.'']
---------------------------------------------------------------------------
    Presented with stagnant or declining performance in the face of a 
meteoric rise in federal spending per pupil, it is reasonable to ask: 
what happened to total spending? If state and local expenditures fell 
to such an extent that they offset federal increases, that might 
explain the profound disconnect revealed in Figure 2.
    To answer that question, I present Figure 3, showing how the total 
cost of an entire k-through-12 public school education has changed over 
time.
    We spent over $151,000 per student sending the graduating class of 
2009 through public schools. That is nearly three times as much as we 
spent on the graduating class of 1970, adjusting for inflation. Despite 
that massive real spending increase, overall achievement has stagnated 
or declined, depending on the subject.
    But what of the federal government's other educational goal: 
narrowing the achievement gaps by income and minority status?
    Test score breakdowns by family income are not available, but we do 
have something close: a breakdown by parents' level of education. This 
allows us to compare the children of high school dropouts to those of 
college graduates. In Reading and Science, the gap between these 
students has not narrowed in 40 years. In Math it has narrowed by 
barely one percent of the test score scale (see Figure 4). So, here 
again, federal appropriations and the programs they have funded have 
failed to achieve their goals.
    That leaves us with one last federal policy goal to examine: 
Shrinking the gaps between minority and white students. In science, 
these gaps, too, are unchanged,\3\ while they have narrowed in Reading 
and Mathematics. But a key question remains: were federal programs 
responsible for this isolated gap narrowing?
---------------------------------------------------------------------------
    \3\ Jay R. Campbell, Catherine M. Hombo, and John Mazzeo, NAEP 1999 
Trends in Academic Progress:Three Decades of Student Performance 
(Washington: U.S. Department of Education, 2000), p. 37.
---------------------------------------------------------------------------
    If so, the gap narrowing that did occur should track federal 
legislation and spending: starting gradually and then accelerating 
rapidly during the past two decades. To see if that is indeed the 
pattern, Figure 4 charts changes in the black/white Reading gap (which 
is one of the larger majority/minority gap reductions, with a fairly 
typical time trend).
    Comparing Figure 4 with the federal spending per pupil trend shown 
in Figure 2, there seems to be little support for the hypothesis that 
federal efforts have narrowed the black/white reading gap. The gap was 
essentially unchanged for the first 15 years after the passage of the 
ESEA and Head Start. Then, in the absence of any dramatic change in 
federal policy or spending, the gap suddenly narrowed between 1980 and 
1988. Since 1988, the gap has actually widened slightly, despite a 
dramatic rise in federal spending over that period. The patterns for 
both math and reading for both black and Hispanic students tell similar 
stories.\4\
---------------------------------------------------------------------------
    \4\ Andrew J. Coulson, ``K-12 Education,'' chapter in David Boaz 
(ed.), The Cato Handbook for Policymakers, 7th edition (Washington, DC: 
Cato Institute, 2009). http://www.cato.org/pubs/handbook/hb111/hb111-
20.pdf
---------------------------------------------------------------------------
    To sum up, we have little to show for the $2 trillion in federal 
education spending of the past half century. In the face of concerted 
and unflagging efforts by Congress and the states, public schooling has 
suffered a massive productivity collapse--it now costs three times as 
much to provide essentially the same education as we provided in 1970.
    Grim as that picture may seem, it fails to capture the full measure 
of the problem. Because as productivity was falling relentlessly in 
education, it was rising everywhere else. A pound of grocery store 
coffee is not merely as affordable as it was in 1970--it hasn't just 
held its ground--it is cheaper in real dollars. Indeed virtually every 
product and service has gotten better, or more affordable, or both over 
the past two generations.
    Seen in that proper context, we would have to be disappointed with 
our nation's lack of educational improvement even if federal spending 
had not increased at all. The fact that outcomes have remained flat or 
declined while spending skyrocketed is a disaster unparalleled in any 
other field. The only thing it appears to have accomplished is to apply 
the brakes to the nation's economic growth, by taxing trillions of 
dollars out of the productive sector of the economy and spending it on 
ineffective programs.
    But amidst this bleak overall record, there is one federal 
education program that has been proven to both improve educational 
outcomes and dramatically lower costs. That is the Washington, DC 
Opportunity Scholarships Program. Research conducted by the Department 
of Education finds that students attending private schools thanks to 
this program have equal or better academic performance than their peers 
in the local public schools, and have significantly higher graduation 
rates. This, and very high levels of parental satisfaction, come at an 
average per pupil cost of around $7,000. By contrast, per pupil 
spending on k-12 public education in the nation's capital was roughly 
$28,000 during the 2008-09 school year.\5\
---------------------------------------------------------------------------
    \5\ The figures in the range of $15,000 for DC per pupil spending 
that are commonly reported in the press are several years out of date, 
do not take into account falling DCPS enrollment in the face of rising 
total spending in the years since they were published, and usually 
exclude major expenditure categories such as capital spending. The 
$28,000 figure is the author's own calculation from the published 
FY2008-09 budget documents of the District of Columbia, and the 
spreadsheet in which those calculations were conducted, including 
source citations, is available here: http://www.cato-at-liberty.org/wp-
content/uploads/Coulson-DC-Ed-Spending-FY2009-Budget.xls
---------------------------------------------------------------------------
    The OSP program is thus producing better results at a quarter the 
cost.
    DC, of course, is a special case. The federal government is not 
empowered by the Constitution to create such a program on a national 
level. Indeed the Constitution delegates to the federal government no 
national education policy powers, reserving them, under the 10th 
Amendment, to the states and the people. Clearly, this limit has not 
been observed for generations, but its wisdom is by now inescapable. We 
have decades of evidence of the inability of our national education 
programs to fulfill their worthy intentions.
    Nevertheless, Congress could contribute greatly to the spread of 
educational excellence around the nation by preserving and growing the 
Opportunity Scholarships Program as an example of what is possible and 
by phasing out its vast array of ineffective programs. This would 
ultimately allow for a permanent annual tax cut on the order of seventy 
billion dollars, and would bolster interest in the many state level 
private school choice programs that have also been improving outcomes 
while lowering costs. Any move in this direction would be of lasting 
value to American families and the American economy.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Mitchell, please?

   STATEMENT OF TED MITCHELL, PRESIDENT AND CEO, NEWSCHOOLS 
                          VENTURE FUND

    Mr. Mitchell. Thank you, Chairman Kline. Thank you, 
Chairman Kline and Congressman Miller, members of the 
committee, fellow witnesses this morning.
    I applaud the bipartisan spirit with which, I think, we are 
undertaking this discussion today. And I know that I am very 
honored to be a part of it.
    I am here for the same reason that you all are. As Chairman 
Kline and Mr. Miller so eloquently said and as my fellow 
witnesses have testified, we know that we need to improve 
outcomes for kids in America's schools. But the good news is 
that the country is filled with entrepreneurs, innovators and 
systems leaders with bold ideas that can change children's 
lives. And the federal government matters in how many of these 
ideas come to fruition.
    I have seen this up close at the NewSchools Venture Fund. 
As a non-profit venture philanthropy firm, we seek out social 
entrepreneurs working to improve public education for low-
income kids. We help those entrepreneurs grow organizations 
that achieve breakthrough results. And I have seen these same 
truths in my recent role as president of the California Board 
of Education.
    Here is an example. Aspire Public Schools was founded a 
decade ago on a college-for-certain philosophy, on attention to 
data and smart management. Today that idea has turned into 30 
public charter schools serving more than 10,000 largely poor 
and minority students.
    And last year, 100 percent of Aspire graduates were 
accepted to college. And Aspire is today the highest performing 
school system serving low-income kids in California.
    Or take Teacher U, where it set out to transform teacher 
preparation in New York by focusing on results in the 
classroom. Last summer, Teacher U. graduated its first cohort 
of teachers with something revolutionary: measurable evidence 
that they had helped their students advance a full grade or 
more in a year.
    We need more Aspires and more Teacher Us. Yet reform 
remains an unnatural act in our school systems, which have 
their own Newtonian logic. To every good idea, there is well-
financed opposition. My colleagues in the field need your help 
in making that fight fairer. That means playing a smart, 
limited role that helps local leaders and local entrepreneurs 
do things that are essential, but politically difficult.
    Here are 3 examples of the unique role the federal 
government can and should play. First, government can continue 
to protect the unprotected by focusing on outcomes for low-
income, minority and special needs students. No Child Left 
Behind was not a perfect law, but the transparency created by 
requiring states to report student achievement by sub-group has 
been a powerful driver of reform. Please stay steadfast in that 
commitment.
    Second, you can foster innovation through targeted 
incentives that ensure we don't try to meet 21st century 
challenges with 19th century tools and policies. And innovation 
isn't just technology. It is new ideas that create better 
results.
    Innovators disrupt calcified systems. And they prove it is 
possible through results, removing excuses and catalyzing 
change.
    And we know from experience that funding innovation works. 
Among the 200 plus schools in our own portfolio, 91 percent of 
its graduates enroll in college.
    And as we have learned, targeted incentive funds drive 
policy innovation disproportionate to their cost and can create 
cover when reform is politically difficult at the local level. 
Often, parents' and kids' interests don't prevail at the local 
level. Incentives can help to combat systemic gridlock caused 
by entrenched interest groups.
    And finally, you can speed reform through your support of 
states as they transition to the voluntary common standards 
advanced by nearly 40 governors, which will establish a level 
playing field for all players, states, districts, schools and 
service providers, allowing the best innovations to scale 
beyond state boundaries. Beyond these broad strokes, there are 
a few examples of specific policies that will advance 
innovation and help states and local communities, particularly 
under-served communities dramatically raise outcomes for their 
students.
    First, please support and fund fully the charter schools 
program to support the growth of high-quality charters and 
support strong charter accountability for those that under-
perform. Second, please consider using Title II funds to drive 
the growth of smart and innovative teacher training 
organizations focused on results and to drive the deployment of 
evaluation and pay systems for teachers that recognize 
performance. Third, help states clear away policies such as 
fixed student/teacher ratios and seat time requirements that 
prevent the spread of effective technologies that are 
revolutionizing the way students learn and teachers teach.
    There is a smart, limited, vital role for the federal 
government to play in education. I hope that you will embrace 
it with enthusiasm and move to reauthorize the Elementary and 
Secondary Education Act. Thanks again for the privilege of 
speaking with you today.
    [The statement of Mr. Mitchell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                

    Chairman Kline. Thank you, all, for your testimony. We are 
going to move into a period of questions and answers. In what 
appears to be a futile effort on my part to set an example, I 
am going to start the clock for my own questioning and stick to 
that.
    If I keep setting that example, is it going to work, 
George? Maybe not.
    Mr. Miller. I have always been a slow learner. [Laughter.]
    Chairman Kline. Dr. Bennett, let me start with you. You are 
doing some pretty tough things in Indiana, some amazing things. 
I have a number of questions here, some, frankly, proposed by 
the staff, some that I have been writing as we went through. So 
I want to touch on a couple of things, if I could.
    Once, you mentioned that you are trying to put in place 
ways for people to make--I think you call it--mid-career 
changes to teaching. Can you tell me how that is--what you are 
doing and how that is working?
    Mr. Bennett. What we have done, Chairman, is really, we 
revamped our entire teacher licensing system under the--we 
refer to it as Indiana professional standards board. The first 
thing we did was say that we were going to emphasize content so 
that chemistry teachers knew chemistry and history teachers 
knew history.
    But the other thing was to, if you will, provide more 
flexibility within the teacher licensing system to allow, 
maybe, a chemist from Eli Lilly to leave that position and find 
a way into Indiana schools to affect the lives of children. So 
it was really an opportunity for us to tap the talent in an 
economy where people may be leaving their jobs to come in and 
provide education to children with some different teacher 
licensing standards.
    Chairman Kline. So you have made it easier for that chemist 
from Eli Lilly in your example, who has decided they are either 
retiring from Eli Lilly, to continue the example, or they just 
have developed an interest in teaching, to get licensed to 
teach in Indiana?
    Mr. Bennett. That is correct. And we have done that with 
teachers, principals and superintendents.
    Chairman Kline. Well, I have always--I have great interest 
in that because I have always thought that we have missed the 
bet in a lot of cases where you have somebody who loves math 
and has spent their life in math and they would like to now 
take that love of math and the skill that they have and teach 
it and transfer it. And too often, we have made that extremely 
difficult to do. So I am always excited when I hear that there 
are efforts to allow that to happen much easier so that people 
aren't discouraged.
    I know in many examples when I retired from active duty in 
the Marine Corps and I established my home in Minnesota, I 
thought, ``Well, I might want to substitute for a while.'' It 
seemed like a good thing to do. And I liked to teach. And so, I 
offered up that I might be interested to do that.
    When it was explained to me all the things I had to go 
through in order to be a substitute, it was so discouraging 
that I started farming instead. I don't know. But it shouldn't 
be that way. It shouldn't be that way. So I was--I am excited 
to hear about that.
    I was also interested in what you are doing to empower 
parents to perhaps have a parent trigger, which we have heard 
some about. Can you talk about how that is working, that you 
are giving parents more control over what is happening with 
their schools?
    Mr. Bennett. Well, in our recent charter school bill that 
just passed our house, we have a parent trigger for 51 percent 
of the parents to trigger and bring a plan forward to remove a 
school from a school corporation and bring it in as a charter 
school or take it to a charter school.
    Yesterday we presented a trigger for parents as it pertains 
to school accountability, which says if the school is in year 4 
or 5, chronically under-performing, under the state standards, 
D or F schools, the parents can then actually go to the state 
board of education and ask for accelerated intervention by the 
state, which gives the state an opportunity to step in and say, 
the parents are not pleased with the education happening here, 
and the state is going to intervene within the law--the state's 
accountability law.
    Chairman Kline. You have a growth model that you have put 
in place, according to my notes here. It looks at student 
achievement, and it allows teachers that are moving students 
ahead one-and-a-half, 2 grades, that they be recognized and be 
highlighted. Two things, quickly, because I am running out of 
time--how do you think that is working? And then, 
fundamentally, for our concerns here, what in No Child Left 
Behind or in federal law is getting in your way?
    Mr. Bennett. Well, first, the growth model is a game 
changer for us. It truly is a game changer because we have had 
educators ask for many years, especially in our under-
performing schools, let us show you that we are moving 
students. You know, not all children walk into sixth grade 
performing at sixth grade level. So let us show you that we are 
doing that. And the growth model does that.
    It also has been the catalyst for our teacher quality 
legislation that we are rolling out, which enables us to 
recognize and reward Indiana's great teachers, teachers who are 
driving growth. And I want to say something about our teacher 
quality bill. It is a locally-driven bill.
    It is not the bill--we got into this thing when we did--
when we went through our race to the top and we chose not to 
engage. What we learned was the state can't run all those 
evaluation systems. So our teacher quality bill sets guidelines 
and guardrails for local school corporations to become the 
centers of innovation in terms of teacher evaluation and 
teacher compensation based on multiple measures, one of which 
should be student growth.
    Chairman Kline. Okay, great. Thank you very much. I guess I 
broke my own rule.
    Mr. Miller?
    Mr. Miller. Seemed like 5 minutes to me. It is so short. 
[Laughter.]
    Thank you very much.
    And thank you to the panel.
    Just to raise one point, I think when you look at student 
performance and you look at money, you want to say that somehow 
there should be some correlation there. I think that is wrong-
headed. But I would also make the point I don't know exactly 
what was going on before because it was so well-hidden. But 
after No Child Left Behind, millions of people were added to 
the test pool that were left out before.
    We know that on test day prior to No Child Left Behind--and 
we know that school districts fought like crazy not to have 
what is now the requirement that 95 percent of your students 
participate in the test--those children were sent on field 
trips. They were told to go to the doctor. They were sent to 
the library, anywhere except in the testing room. Now they are 
in the pool.
    And so, I think what is more important is how we are doing 
with younger students, how we are doing with eighth graders, 
how we are doing with fourth graders and how that gap is being 
improved. So I just want to say I don't accept that.
    But more importantly, here, I think, is really for us as we 
anticipate going forward with the reauthorization--Mr. Mitchell 
and Dr. Bennett, you have both talked about something that I 
think is going to be the most important part of this, is how we 
balance the flexibility, recognizing that in these nine years, 
local education's changed dramatically, dramatically from the 
outset of the data we were trying to acquire in No Child Left 
Behind in the accountability.
    Flexibility and balancing that with the accountability we 
must insist on--otherwise, once again, there will be creativity 
of local districts to hide students and to hide their 
performance. We have been whipping the top 10 percent of 
students the entire history of this nation. But we owe an 
obligation to the 100 percent of those students in that 
district.
    How do we balance that? Because when I tour big, complex 
districts, those superintendents have to partner with a 
significant number of other people, with the police department, 
with parks and recreation, with health organizations to keep 
that population up and running, if you will, so that they can 
fully participate in the educational opportunity.
    They have to partner with charters. They have to partner 
with teacher organizations. They have to partner with teacher 
development organizations, with social entrepreneurs. But they 
are stuck with, kind of, money that, for a lot of reasons in 
the past, we directed directly to a particular school site. Now 
what we see are very transient students, for a whole host of 
reasons.
    They can be transient if for no other reason than the 
Internet. But they can also be transient because their parents 
work somewhere else and they have transportation and the 
opportunity to go to a school in a different part of a 
district. That is a big change when we were sending--when I 
came on this committee--what we called radioactive dollars. 
They either followed that student, or we ripped them away from 
the district.
    That doesn't work in this very mobile educational forums 
that we want to be able to present and have students take 
advantage of, sometime multiple times during a single day they 
can move to a different platform or a different site. And I 
just would like you both to--on my remaining 5 or 6 minutes 
here--to comment on that balance of flexibility. [Laughter.]
    Because I just keep encountering the superintendents that 
are really becoming very creative about marrying existing 
resources--I am just talking about existing resources--to 
providing that better educational opportunity.
    Mr. Bennett. Well, let me speak to that directly. First of 
all, what we did in our state board was we started a very quick 
and extensive deregulation. Indiana was the first state in the 
country to define a laptop computer as a textbook. And I think 
in doing so, we opened up a whole new world to, maybe, address 
what may be our society's next achievement gap. And that is the 
gap where students who have resources can learn to access 
technology, and students who don't have resources cannot.
    And so, we did that. We eliminated seat-time requirements. 
We eliminated a lot of the structures that came to us that 
superintendents brought to us and said, ``We need you to get 
this out of our way.'' We also have reviewed over a hundred 
data collections that the state requires. And we found at least 
30 that have nothing to do with student achievement.
    And the truth is we have to get rid of that stuff.
    Mr. Miller. I am going to have to ask Mr. Mitchell, because 
you have only got a minute left.
    Mr. Mitchell. Totally agree. And I think that one of the 
issues, certainly, that we face in California in California's 
budget crisis was a problem that as dollars were shrinking, the 
requirements on what specifically to spend those dollars were 
staying firm. And so, we were finding schools and districts and 
the state as a whole where categorical programs, siloed 
programmatic spending were preventing the kind of flexible use 
of funds that are required to do the right thing for kids.
    And I think that, as I mentioned in my testimony, that 
continuing to shine a spotlight on student achievement, 
particularly those kids who have not been a part of the system 
before, providing resources, but flexible resources, whether 
that is federal resources or state resources to the local--or 
local resources to the school, is the key to unlocking the 
innovative, creative spirit of teachers in classrooms, 
principals at schools and, outside of schools, municipalities 
as well. And I think that flexibility in funding, high outcome 
goals that are clear to all is a very, very powerful 
combination.
    Chairman Kline. Thank you.
    Dr. Bucshon?
    Mr. Bucshon. Well, I would just like to say first it is a 
pleasure to have Dr. Bennett here from my home state of Indiana 
and the rest of the panel. Thank you for your testimony.
    I am going to direct my question first to Dr. Bennett 
then--and whoever wants to comment. And I grew up in a small 
town where not everybody valued education. I was at a very 
small school. But my parents did. And so, when I came into--
when I started into the local school system, I already had in 
my mind as a student that achievement in school was going to 
give me opportunity. And that is why I am here today.
    I continue to believe that we have a lot of students that 
when they come into school, they don't have expectations of 
themselves because of where they have grown up. Can we--is 
there a way that we can do a better job, I guess, with our 
society in general, to help people recognize the importance of 
education so that when kids enter our school system and we are 
doing all these things to teach them, they already have the 
mindset that, look, if I don't get my education, this is where 
I will be in life, if I do, this is what I may achieve?
    So, Dr. Bennett?
    Mr. Bennett. Well, I think, first, Dr. Bucshon, I think we 
have to recognize first--and I--this pains me to say this. But 
the one thing I know I can't control is the home that that 
child comes from. And that is sad. I mean, I think we all wish 
that every child came from a home that afforded that child with 
a great opportunity.
    But we have a school corporation on the East side of 
Indianapolis, Warren Township Schools. Their superintendent 
basically tells their staff, ``Every year, there will be no 
excuses. These are the expectations. And our students will meet 
those expectations.''
    They use an incredible continuous improvement model. They 
drive student growth. And then we have Charles Tindley 
Accelerated School in Indianapolis that literally has painted 
on the wall in the most disadvantaged community in 
Indianapolis, ``Go to college, or die.''
    We have to set those expectations from the top. And we have 
to make sure that instruction is driven with those expectations 
because we can overcome what happens in the house.
    Ms. Keegan. If I could add also, there have been 3 very 
powerful films out in the past year. The first was called, 
``The Cartel,'' then, ``The Lottery,'' then, ``Waiting for 
Superman.'' And it kind of puts it back on us. These families 
are desperately trying to get their children into schools that 
work for them. And I am afraid what we have done in urban 
America and too many places, sometimes in very rural America, 
is we have created generational lack of expectation. And it was 
the schools' fault.
    If you talk to Jeffrey Canada about this and what happened 
in Harlem, he blames that on education. If you repeatedly do 
not educate your family, then what you get is predictable. But 
it is not true and I have never experienced in my opportunities 
in spending time with leadership in urban communities who are 
trying to work with families, I have never experienced families 
that didn't want this for their kids.
    I have certainly experienced the fact that doors were 
slammed in their face. And I think we have to take that pretty 
seriously.
    Mr. Mitchell. I agree. And I think that where we sit, the 
overwhelming demand from parents for high-quality schools is 
the challenge to which we all need to respond. That said, I 
think it is true that there are schools that have low 
expectations. And there is no place in this debate for those 
schools. There is no place in that debate for leaders with low 
expectations for kids.
    If you were to ask me what is the single defining 
characteristic of all of the high-performing schools that we 
support, it is a culture of high expectation. And, as Dr. 
Bennett said, philosophy of no excuses. Kids come where they 
come from. It is our responsibility to move them to places that 
can address their dreams.
    Mr. Coulson. I would just add very briefly that good 
schools, truly good schools can and do have a positive impact 
on students' and families' attitudes about learning and their 
expectations for what is possible. I have seen it, and it is 
truly amazing what is possible.
    Mr. Bucshon. I give back the rest of my time. Thank you.
    Chairman Kline. I thank the gentleman.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Mitchell, how can we modify the system that measures 
school performance to broaden out our method of determining 
progress? And how can we address the fact that a sub-group may 
keep a school from achieving AYP without neglecting our 
responsibilities to that sub-group?
    Mr. Mitchell. Great question, sir. My sense--and we have 
talked about it a couple of times already--is that the broad 
adoption of growth models enables us to have a very different 
discussion about progress and a very different discussion about 
intervention. Growth model analysis holds schools and districts 
and states to high bars, but also allows us to identify and 
help provide support for addressing the needs of particular 
sub-groups.
    Below that, I think that assessment tools and 
technologies--and I am not thinking about the end of the year 
summative tests. But I am thinking about the formative tests 
that are now coming along associated with everything from 
formal textbooks to digital learning materials are helping 
teachers in classrooms improve their practice, adjust what they 
are doing with kids on a daily basis. And I believe that that 
is going to revolutionize the way we approach this.
    Mr. Kildee. Thank you very much.
    Dr. Bennett, I come from nearby Michigan and was a teacher 
there for 10 years in Michigan. How do you hold in your growth 
model into the other measurements for AYP? How do you merge 
them or meld them?
    Mr. Bennett. Actually, we are taking that in a different 
direction, sir. We are actually looking to remove AYP from our 
state's accountability system. We just recently--or we are in 
the rulemaking process to grade all Indiana schools A-F as 
opposed to the fuzzy descriptors that we have.
    And that A-F grade is based on first the achievement of the 
students in the school then the growth of the students in the 
school and finally, the growth of the lowest 25 percent of the 
students in the school, because the growth of the lowest 25 
percent is your achievement gap. And every school has an 
achievement gap, from the most advantaged school corporation in 
the state to the most disadvantaged school corporation in the 
state.
    And I believe that is a much more fair process because a 
student only counts once. A disadvantaged student who is in the 
lowest 25 percent counts once as opposed to counting in what 
could be up to 21 different sub-groups against a school in a 
pass/do not pass system.
    Mr. Kildee. There are students who belong to more than sub-
group. When right now under the present system, you measure, 
say, fourth graders at the end of the fourth grade. And next 
year, you measure fourth graders, but they are different 
people, so you actually measure no growth at all under that 
system. Is that not the case?
    Mr. Bennett. In our growth model, you are measuring the 
children year-over-year. So you are measuring apples-to-apples 
comparisons.
    Mr. Kildee. Good. That is one of the efficiencies of what 
we wrote. I was part of that a few years ago because these are 
different children we are measuring.
    Mr. Bennett. Right.
    Mr. Kildee. But if you can show the growth in that child, 
that would be a more valid measurement of how much progress has 
been made because you are measuring different fourth graders 
each year, rather than the same students in their growth.
    Mr. Bennett. And you can actually get on--we have a Web 
site called the learning connection. You can look at every 
school corporation and every school in the state and see how 
their students grow. And that is a very powerful tool for 
parents. It is a very powerful tool for our educators. And, 
frankly, again, we think it is going to be a game changer in 
Indiana.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Gowdy, you are recognized.
    Mr. Gowdy. Thank you, Mr. Chairman. I am going to, 
hopefully, ask 4 questions. So I will try to be concise with my 
questions in hopes with an expectation of an equally concise 
answer.
    Mr. Mitchell, I will start with you. I wrote this down. 
Feds can provide cover for local authorities. Cover from whom?
    Mr. Mitchell. I think Ms. Keegan and I are on the same page 
on this. In too many local decisions, entrenched interests, 
institutionalized interests----
    Mr. Gowdy. Such as?
    Mr. Mitchell [continuing]. gridlock the system. Well, I am 
a great example. I think that I am currently a defendant in a 
number of lawsuits that include everybody from the 
Administrators Association to the California School Board's 
Association to the Teachers Union to Cafeteria Workers. So I 
think that there are substantial interests from across the 
board. And there are some--plenty of responsibility to share.
    Mr. Gowdy. Fair enough.
    Ms. Keegan, I went to the worst school in South Carolina 
last week. And I was curious to see what it looked like. And I 
walked in, and there are kids in wheelchairs and helmets, and 
there are teachers trying to teach them to avert their eyes to 
express a preference. And yet, they are tested in geography 
just like my children would be. And they fail. And the school 
is given a failing grade.
    And the property values go down. And the school gets a bad 
reputation. What words of encouragement can I take from 
Washington to the teachers who work so hard there that there is 
going to be relief and change from Washington in how we grade 
success in schools?
    Ms. Keegan. Well, Mr. Chairman, sir, I would advise that we 
find the school in the country that is doing the best job with 
that group of kids or with that mixture of kids and find out 
what is going on, first of all. First and foremost, you want to 
make sure that we are doing everything we can for kids at every 
need level.
    But that we are not--whatever it is we do in terms of 
assessing kids, we don't artificially penalize a school when it 
is doing the best it can and getting a result. And as Dr. 
Bennett and the panel has been talking about, growth allows you 
to look at where you start and where you end up.
    What we can't do is leave kids invisible. It is a very fine 
line. If we don't test them, they are invisible, and then we 
don't have to do anything with them.
    Mr. Gowdy. But you would agree with me it is sheer lunacy 
to test children who cannot avert their eyes to show a 
preference on the geography of the regions of the state of 
South Carolina?
    Ms. Keegan. I am surprised, Mr. Chairman--Mr. Gowdy. I am 
surprised that those students are included. There is an 
exception at 1 percent for severe students. I am very surprised 
that that student would be tested if, really, their only 
communicative motility is aversion of eyes. I mean, I am a 
speech pathologist when I had a real life. And I don't see that 
that would--that should be the case. So maybe we just need to 
talk to the school.
    Mr. Gowdy. All right. Thank you.
    Mr. Coulson, I heard parental control. I heard parental 
choice. The one phrase I have not heard is parental 
responsibility. And perhaps I am a minority of one, but I think 
it is fundamentally my responsibility to produce educated 
children to society. Am I wrong? And aside from prosecuting 
educational neglect cases, which I have done for 16 years, what 
can be done so we shift the paradigm from it being our 
responsibility to produce educated children to parental 
responsibility to produce educated children?
    Mr. Coulson. Not only is parental responsibility paramount, 
but it is affected by the structure of the school system. When 
parents have no authority to control the nature of their 
children's education, who teaches their child, what they are 
taught, when they go to school, where they go to school, 
parents are naturally disenfranchised. They have no power, so 
they disconnect from the system.
    You have many cases of young parents who had young children 
starting out in elementary school who think that they have some 
sort of input and they burn out within the first few years of 
school when they realize that the system does not need to 
respond to them. What changes that is when parents are in the 
driver's seat. When parents, either with their own money or 
through a scholarship, are paying for their own children's 
education, it is absolutely unavoidable for the school to 
respond to them and to heed their wishes because it is in the 
financial and professional interest of the school to heed those 
wishes.
    When parents are empowered in that way, they become more 
involved. It is like exercise. You know? When you have 
responsibility--having responsibilities breeds responsibility. 
So we need to increase the amount of responsibility parents 
have in their children's education.
    Mr. Gowdy. Mr. Chairman, I see the caution light. Thank 
you.
    Chairman Kline. You are to be commended. Thank you for 
yielding back. It is probably my fine example.
    Mr. Andrews, you are recognized.
    Mr. Andrews. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for calling this hearing, which I think is very instructive 
in addressing very important problem. We appreciate that.
    And thank you to the 4 witnesses. Really outstanding. I am 
thinking this morning about a girl who is in seventh grade who 
shows amazing potential in mathematics. And she might be able 
to start to do high school-level work or even eventually 
college-level work in mathematics. But she lives in a town that 
couldn't afford to bring in a math teacher who could help her 
do that, or she is in a class of 25 or 30 peers who couldn't 
possibly keep up with that. So she is standing still.
    And, Ms. Keegan, one of the ideas that you touched on--and 
I know Dr. Bennett touched on--is the use of online learning as 
a way to address the needs of that young woman.
    I am familiar, Mr. Mitchell, of what Stanford University 
has done with its EPGY program in this regard. You open up 
these horizons for children in very exciting ways.
    And I wanted, Ms. Keegan, in particular, if you could give 
us some recommendations as to what you think we should do with 
online learning options in the reauthorization of No Child Left 
Behind.
    Ms. Keegan. Well, I appreciate the question because there 
are a number of places where we don't even realize that they 
are going to run into a wall. So the number one thing I would 
suggest is to keep a very open dialogue with organizations like 
IMAKOL and others that represent online learning in America 
because we have got 4 million kids going to school online.
    Half the states right now offer full-time online learning 
for their students, which is something you probably know. And I 
think we are at 45 at least who are offering at least some 
course work.
    Mr. Andrews. May I ask you a specific question? And I agree 
with those suggestions. As you know, under the present 
iteration No Child Left Behind, if a school doesn't make what 
we now call Adequate Yearly Progress, there is a menu of 
options among which it must choose.
    Ms. Keegan. Right.
    Mr. Andrews. Do you think that we should include an online 
learning alternative as one of those options that schools 
should have to look at?
    Ms. Keegan. I do. An interesting thing about the 
recommendations is that parents can choose a different 
governance system. And what is happening out there is that 
governance is sort of blending. Online schools are sometimes 
private, sometimes charter, so I think we need to be aware. You 
don't want to accidentally not give people options. So I would 
absolutely think that is a fabulous idea.
    Mr. Andrews. Mr. Mitchell, would you give us some 
recommendations in this area?
    Mr. Mitchell. You bet. So I think a couple things--and I 
want to applaud Indiana and several other states who have 
cleared away their seat-time requirements and their fixed 
student/teacher ratio requirements. I think the next block to 
fall is, just as you suggest, competency-based credit to allow 
students to move along at their own pace.
    As we speak, there is a terrific experiment going on in--
near Stanford with Conn Academy, an online group that we help 
support.
    Mr. Andrews. Right.
    Mr. Mitchell. And in a fifth grade class that has been 
using Conn Academy only since the fall, the spread of kids is 
enormous. And there are kids in that fifth grade class who are 
doing algebra today.
    Mr. Andrews. One of the problems, frankly, is cash flow to 
support this. You know, some parents have the wherewithal to 
make these resources available to their sons or daughters. Many 
do not.
    What would you think about the idea of freeing up Pell 
dollars to be used by these kind of students for early college 
courses, you know, that are offered by some? And what if they 
are really talented--this young woman, by the time she is a 
junior in high school, could do college-level math. What do you 
think of the idea of letting her use part of the Pell grant 
early so she could do such a course online?
    Ms. Keegan. She is taking college coursework, I mean, I 
don't want to speak for you, Ted, but I think we would probably 
agree that what we are trying to do is do away with barriers 
that are artificial. It is an artificial barrier to say you 
have to be in high school for 4 years.
    Mr. Andrews. One of the barriers----
    Ms. Keegan. So the point at which----
    Mr. Andrews [continuing]. I worry about that I have heard 
from colleagues at Stanford is that they wanted a person to 
teach an economics course who had run a hedge fund, a 
successful one back when you used to have successful hedge 
funds. And he was not eligible to teach the course in economics 
because he was not a highly-qualified teacher under California 
law. Might we suggest a way to fix that problem?
    Ms. Keegan. That is up to Mr. Mitchell.
    Mr. Mitchell. Thank you. So that is an enormous barrier. 
And it is not only a barrier for people who are highly 
qualified in their intellectual domain, but it is also a 
barrier across states, across state lines because credentials 
are not automatically transferable across state lines. And both 
of those issues, I think, are ripe for this committee and this 
Congress to take up.
    I think that online learning is a powerful tool. Hybrid, 
blended schools that combine----
    Mr. Andrews. Dr. Bennett, I have less than a minute, but 
you can use all of it.
    Mr. Bennett. I----
    Mr. Andrews. Every last second of it.
    Mr. Bennett. My question would be more why are we talking 
about highly qualified as opposed to highly effective. Okay? 
Highly qualified means there are inputs, and you are judging 
the professional by their inputs. And we do that in an 
antiquated system that we have today where we say we pay 
teachers on years of experiences and degrees held, and you get 
these things by, you know, how many education courses you take 
or what have you.
    Let's put these decisions in the local hands. Let's have 
data-driven evaluations that identify teachers as highly 
effective because we know highly effective influence the lives 
of children. Highly-effective teachers influence the lives of 
children more than just simply highly-qualified teachers.
    Mr. Andrews. Thank you.
    I yield back the balance of my carefully conscripted 5 
minutes.
    Chairman Kline. I thank the gentleman.
    Mr. Barletta, you are recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    Dr. Bennett, we touched on something here. As you know, no 
factor under school control affects student achievement more 
than the quality for the teachers in the classroom. Poor 
teacher quality, especially in the early grades, can affect the 
student's education for a lifetime.
    Since you took office in January of 2009, you have proposed 
to eliminate teacher tenure. Now, you talked about rewarding 
teachers through the teacher quality bill. Can you please shed 
light on this initiative and others like it that aim to place 
quality teachers in the classroom?
    Mr. Bennett. First, thank you for asking. This is part of 
our putting students first education reform agenda. And it, 
again, goes to this issue of teacher effectiveness in that our 
new teachers coming into the system would have to have 3 out of 
5 years effective or above evaluations to achieve what is 
called professional status. Until that time, they are 
probationary teachers.
    And then if they get an ineffective evaluation, they go 
back to probationary. So it is earned in, earned out. And a 
second ineffective evaluation makes that teacher eligible for 
dismissal by the local school corporation. And we also would 
like to tie the teachers' professional development to those 
ineffective evaluations.
    So the principal says you were ineffective. We are going to 
target professional development. And then we will also, in 
essence, reward the teacher by saying you can use that 
professional development to improve your ineffectiveness to 
renew your license. So it becomes a situation where we are 
targeting teacher effectiveness for the benefit of student 
performance.
    Mr. Barletta. My district is home to a multitude of higher 
education institutions, community colleges, public and private 
universities and for-profit schools. In your expert opinion, 
what are the benefits of partnerships between the universities 
and the K-12 school system? And how has the state of Indiana 
embarked on such initiatives?
    Mr. Bennett. Well, we have a number of initiatives going on 
to promote higher ed attainment in high school. And I think 
going back to the slide I showed where we want 25 percent of 
our students graduating with advanced placement, international, 
baccalaureate or dual credit. So we are really--we have a dual 
credit advisory committee that our commissioner for higher 
education, Teresa Lubbers, and I co-chair, where we are trying 
to clear out pathways so that students can attain dual credit 
in high school.
    We have a high school in Northwest Indiana, Crown Point, 
where the principal there is doing phenomenal work. And he has 
done it by making the dual credit opportunities accessible by 
price point. What we know is that students and parents will 
engage in dual credit opportunities if they are affordable. And 
he has made this available through a partnership with Indiana 
University Northwest and Purdue Calumet by offering dual credit 
opportunity to $25 a credit hour.
    That is a very accessible amount. The other thing is to 
make teachers accessible. You know, we have teachers in our 
state that could teach dual credit courses. And many of our 
teachers are not allowed to teach dual credit because of some 
barrier the universities put up. But yet, that same teacher can 
go to the university after-hours and teach adults.
    Now, that doesn't make sense. So we need to remove those 
barriers so that our students have access to the professionals 
and have a cost-effective access to dual credit in high 
schools. We are also offering a--proposing legislation to allow 
students to leave high school after their eleventh grade and 
use some of the tuition support to go to college early.
    Mr. Barletta. Thank you.
    Mr. Coulson, I don't have much time. But the literature is 
mixed in regards to a direct correlation between education 
spending and student academic achievement. However, I think we 
can all agree that how the money is being spent is the most 
important factor in this debate. What specific education 
programs, besides the D.C. opportunity scholarship program, 
which you touched on, do you think we should continue funding 
at the federal level?
    Mr. Coulson. I think I could just yield back my time by not 
answering that question. I am not aware of any other federal 
program that is proven to be both effective and efficient with 
anywhere near the quality of research that supports the 
opportunity scholarships program.
    If I found that there was such a program, then I would be 
very much in favor of a constitutional amendment to make it 
possible to grow such a program. But indeed, I find that apart 
from the district program, there is really nothing that the 
federal government has done that has been proven to increase 
achievement.
    Mr. Barletta. Very interesting. Thank you.
    Mr. Hunter [presiding]. Mr. Scott, you are recognized.
    Mr. Scott. Mr. Coulson, could you provide the research that 
documents what you just said? Because the findings I have heard 
about the D.C. voucher program suggest that some schools are 
good and some are bad and that on balance, they are no better 
than the public schools. So could you provide the research?
    Mr. Coulson. Yes, Congressman. The study I am referring to 
is the most recent of the studies commissioned by the 
Department of Education and completed by Dr. Wolff and his 
colleagues. It finds that student academic achievement is as 
good or better than that of students in other schools. The 
difference is not statistically significant in academic 
achievement. However, the difference in----
    Mr. Scott. You said good or better? And assuming you could 
say the same as good or worse.
    Mr. Coulson. No, you couldn't, actually. The effect is 
positive. It is just not large enough to be statistically 
significant. And as for the effect on graduation rates, it is 
both positive and statistically significant.
    Mr. Scott. And does that count for selection bias?
    Mr. Coulson. Actually, there is very little selection bias 
in this kind of study because it is a randomized control trial. 
It is like a medical experiment in which you randomly assign 
students to the control group.
    Mr. Scott. Well, if you could provide that research, 
because we get a lot of researchers come up to a different 
conclusion.
    I would like to ask the panelists just a general question 
because whether you do something in a charter school or a 
private school or public school or flexibility or no 
flexibility, when the dust settles, you want what is going on 
in the--and you assume it is going to be a classroom--what you 
need to provide a quality education. And do we know?
    Mr. Mitchell. Sir, I will start, and maybe we can just kind 
of run down the line. I think one of the things that Dr. 
Bennett said at the outset that is critical to this discussion 
is that it is the most important thing to understand is that it 
is no one thing, that it is a collection of very complicated, 
inter-dependent effects that need to be managed carefully and 
that they need to be managed best at the place where students 
and teachers come together, at the school and the local 
community.
    And strong culture, high expectations, a strong reliance on 
data to provide continuing feedback on how kids are doing and 
how the adults in the system are doing, accountability for 
results. That is for kids, it is for parents, and it is for 
teachers and absolutely transparency about how money is being 
spent, how resources are being used and the outcomes that those 
resources are yielding. That would be my recipe, sir.
    Mr. Scott. Well, let me ask a specific follow-up question 
on the effect of teachers versus the qualified teachers because 
this is something we have been trying to grapple with. Can we 
effectively measure when we have an effective teacher and when 
we don't? Some of the measurements that are presently being 
used, I understand, aren't much better than random as to who is 
effective and who isn't.
    And is there evidence that a teaching background actually 
helps? You need a subject matter background, but the teaching 
background, I would think, would help, too.
    Mr. Bennett. Well, I would first say that the issue in 
regard to evaluation instruments, I think, that is a huge issue 
that we are tackling today across all states. I think what we 
know is what we are doing doesn't work. Indiana is no different 
than the rest of the nation. Indiana has 99 percent of its 
teachers are rated effective or above.
    Now, I think we all know that in a state where you have 60 
or 70,000 people, that is statistically impossible. So I think 
what we are saying is that you should have 4 categories. And I 
do like the 4 categories: highly effective, effective, 
improvement needed and ineffective.
    And I do not ascribe to a bell-shaped curve distribution or 
a set percentage distribution. But I think here is a good 
indicator, Congressman. I think you have to take a look at 
school performance and human capital performance. You have to 
marry those 2 things. And that is why we are going A-F schools.
    You know, can a D school or an F school have 99 percent of 
its professionals be effective or above? And you have to have a 
transparent way and an easy way to marry school accountability 
and professional accountability.
    Mr. Scott. I want to get in one more question before my 
time is expired. And that is we have--everybody has shown 
charts about achievement gaps. And we have shown that everybody 
can learn. And I just wanted to ask if you could comment on the 
civil rights implications of educating one racial group to the 
ninth grade and other racial groups to the twelfth grade.
    Ms. Keegan. I don't think there is any way to say it is 
anything but abysmal. We can predict by, unfortunately, wealth 
and by race in this country what achievement is going to look 
like. And that is poisonous for us. There is no question.
    Mr. Scott. And does that constitute a civil rights 
violation?
    Ms. Keegan. I believe the violation is that we assign 
families into failure. And that, I think, is a violation, when 
we know there are schools--we have a cure. And somehow we can't 
make that cure available to students. Instead, we assign them 
to schools we know have been failing for years. I believe that 
is the violation.
    Mr. Hunter. Thank you.
    Dr. Des Jarlais is recognized.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    I would like to wander down just a little different path 
than we have so far here this morning.
    And, Dr. Bennett, because you were so kind to have the 
Indiana's education challenges slide for us, on one of the 
topics there, you said that only 58 cents of every education 
dollar goes to Indiana classrooms. I have a pretty good guess, 
but can you tell the committee where the majority of the other 
42 percent goes?
    Mr. Bennett. Everywhere but classrooms. You know, I think 
we also include capital costs, other costs associated with 
transportation, but also a lot of central office 
administration. And that is not a condemnation. But I do want 
to say this, sir.
    I mentioned Warren Township schools, which is about 11,000 
schools of students in the school corporation. If you go around 
metropolitan Indianapolis, you will frequently hear every one 
of their administrators say, ``We have the best central office 
in metropolitan Indianapolis. It is also the leanest.''
    Mr. DesJarlais. I think I have heard different numbers and 
different statistics. And you call can correct me. But I think 
roughly about $8,000 per student per year is an average for our 
public school systems.
    And I have also heard a statistic--and you didn't give me 
the answer I hoped, so I will give it back to you. You know, 
roughly about 40 percent of our dollars go to bussing in this 
country. And when you look at the $8,000 per student, that is a 
large piece of the pie. Do you happen to know what percentage 
in Indiana it is?
    Mr. Bennett. It is not that high. I don't have the exact 
amount, but I will get that for you.
    Mr. DesJarlais. Okay. Does anybody else on the panel have 
any thoughts on that? You know, we hadn't talked about bussing 
in a while in education. And I don't know if we perfected the 
system. But there was also a study done--and I am not sure if 
it was Iowa or Michigan. But there was a bussing strike.
    And it was interesting that during that strike, it was long 
enough that there was actually a noticeable increase in 
academic achievement in the schools. And so, they studied that.
    And the reason behind that would be that the 20 minutes a 
day that the parents had their students captive in the car to 
and from school, they were more in touch with their life, what 
was going on, you know, not only academically, but in their 
personal lives. And that did have a direct correlation with the 
increase. So I would just propose--and if anyone wants to 
comment on what we might be able to do to look into the bussing 
costs and see whether there are situations where parents can 
get more involved in the transportation process.
    Ms. Keegan. The way that we fund it is usually it is 
separate, as you know, Congressman. So it is mileage routes, or 
whatever it is. And it is held out into its own budget. It is 
very high. And it would be worth looking at.
    Mr. DesJarlais. If there are no other comments, I will 
yield back my time.
    Chairman Kline [presiding]. Thank the gentleman. Excellent 
examples being set.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for being here. I think we have spoken 
quite a bit about teacher effectiveness. And I want to go a 
little bit further in the teacher evaluation.
    Actually, Mr. Polis and myself have introduced a bill 
dealing with teacher evaluations that we hope will be part of 
the reauthorization as we move forward. But I think one of the 
challenges that we know is when we talk about teacher 
evaluation, somehow we want there to be the most optimum 
learning environment for children in that setting.
    And when you don't have good data, when you don't have a 
good growth model, when you don't have principals who know how 
to provide good evaluations, all those things make it, I think, 
difficult for teachers to buy into what we are trying to do. 
And I think what we are all talking about is a collaborative 
process so that teachers are the winners in that and kids, of 
course, are at the center of that.
    How do you get there? Where do you get that buy-in? And do 
you think that absent the policy that is supported at the top 
of leadership, whether it is among principals or among teachers 
that we can move forward with that? What would you suggest that 
we do to bring that together?
    And I think, Dr. Bennett, you have certainly spoken to it 
as well as Mr. Mitchell and others.
    Mr. Bennett. Well, first, let me start by saying I don't 
know of a professional that doesn't want to be evaluated 
annually. And our teacher quality bill proposes that. And it is 
getting great push-back from our teacher unions.
    We have to cite a newspaper article, I met with the 
superintendent of Indianapolis public schools last year about 6 
of his under-performing schools. He identified with teacher 
union representatives present that 60 percent of the teachers 
in those schools were ineffective.
    Yet, we have far too many labor contracts in Indiana that 
don't allow these teachers to be annually evaluated. I spoke to 
a principal just this week who said after 5 years of service, 
he cannot evaluate a teacher unless they are really bad.
    And so, I think we have to first and foremost say 
evaluations should be annual. I think we do have good data. I 
think student engagement--you know, the Gates Foundation did a 
phenomenal study on what teachers believe is effective in 
evaluations. And I think we do have good data, and we should 
tap into that.
    But I would also say I think when we talk about this 
evaluation piece, we should be tapping our local school 
corporations to help us develop those tools because I don't 
think 50 states can do it all by themselves. We have to have 
the centers of innovation at the local level.
    Mrs. Davis. Could you just follow up just briefly? When you 
talk about the local corporations, what is it specifically that 
they are?
    Mr. Bennett. Our school districts in Indiana we call them 
corporations. I am sorry.
    Mrs. Davis. Okay.
    Mr. Mitchell. (OFF MIKE) [Laughter.]
    Mrs. Davis. Okay.
    Mr. Bennett. I am very sorry. You know, it is Indiana-
speak.
    Mrs. Davis. So the school boards themselves are developing?
    Mr. Bennett. Yes, school districts.
    Mrs. Davis. With collaboration between the different 
institutions or kind of on their own?
    Mr. Bennett. Well, yes, I would--I assume that will be the 
case. Again, this is an issue again, in many of our labor 
contracts, the teacher evaluation tool, the teacher evaluation 
process are embedded in the labor contract.
    Mrs. Davis. Right.
    Mr. Bennett. So I think once again it is an issue where we 
must demand that professionals be evaluated annually and 
rigorously and that the feedback they get is meaningful. And I 
think there is good data for that.
    Mr. Mitchell. And it is not--I think we need to move beyond 
the rhetorical, full-stop about using evaluation to get rid of 
bad teachers. This is about creating a talent management system 
that helps the best teach the next best and helps build up the 
profession and helps teachers grow in areas where they need 
growth. So I fully support where Dr. Bennett is leading, which 
is that we need to experiment.
    We need to encourage local communities to develop different 
tools, different techniques. We need to learn from those. We 
also need to include organizations that are less constrained by 
collective bargaining agreements that would include Catholic 
schools, independent schools and public--many, many public 
charter schools.
    Mrs. Davis. Can I--because I don't have much more time.
    Mr. Mitchell. Certainly.
    Mrs. Davis. In the reauthorization, do you all see that 
there is a carrot and stick approach to this so that this is, I 
guess one would call it a mandate--over a period of time where 
you give people, you know, a lot of help and a lot of support 
in developing those? But that at the end of the day, that we 
want to see that this is a process that all schools have. 
Because if we don't have the scalability throughout the 
country, we are not going to get there essentially.
    Ms. Keegan. I don't know why you would want to do that at 
the federal level. I think what you want to do is get rid of 
the prohibitions. So let's just empty the big elephant in the 
room.
    Let's not have contracts that say you can't walk in a 
classroom and evaluate a teacher whenever you want, that you 
can't relate a teacher's assessment data to her performance, 
that you can't hire and fire teachers on the basis of their 
performance. That is in almost every contract in American 
schools.
    So the best thing to do would be to lift that up and be 
transparent about it, find out who is--there are great 
evaluative processes. They are different all over the place. 
But what they have in common is the liberty to act.
    Mrs. Davis. Thank you.
    Chairman Kline. Thank you.
    Mr. Hunter, you are recognized.
    Mr. Hunter. Thank you, Mr. Chairman. The first question--
and set me straight here. You have about just under 100,000 K-
12 schools in the U.S. And from what I understand--correct me 
if I am wrong--about 2,000 of those schools are responsible for 
about 50 percent of our dropouts.
    So my question is when you talk about the OSP or you talk 
about competitive grants, those 2,000 schools that are 
responsible for the majority of our dropouts--as you break 
those down into urban, suburban or rural schools, how do you 
see OSP or competitive grants being more effective in which 
area? And my question goes to everybody. Thank you.
    Mr. Coulson. Well, I think that by encouraging the OSP at 
the federal level, you will encourage states to make similar 
programs around the country. There already are similar programs 
around the country. And those programs are helping kids in all 
kinds of different districts. And as virtual learning 
progresses, they will be able to reach into even remote rural 
areas, as we discussed earlier.
    So just increasing the amount of choice and providing a 
model for the states on how to increase the amount of choice is 
going to help raise graduation rates, lower the dropout rate, 
based on the evidence we have to date. So, I think, set the 
model, and it will be followed. And it will be effective.
    Mr. Bennett. Mr. Hunter, I would add that, first of all, 
obviously, strong accountability is number one. You know, we 
can't allow those schools to operate if they are not serving 
children. That is number one.
    But we did something a little different. When we got to the 
department in 2009, we trimmed our staff by about 25 percent. 
And we took the savings from that and with part of that 
savings, we actually offered our schools across the state a 
graduation rate incentive program.
    So the top 10 schools in the state that had the highest 
percentage of non-waivered graduations, we are going to give 
those schools $20,000 to distribute to the critical personnel 
who made that happen.
    So I think we have to get a little innovative. We have to 
think a little differently. We have to offer incentives for 
what works. We have to set high expectations. And again, I 
can't emphasize enough that when schools don't perform and kids 
don't graduate, we have to hold the school accountable.
    Mr. Hunter. How much time did you gauge that improvement 
over?
    Mr. Bennett. That was a one-year.
    Mr. Hunter. And it was improvement, not total graduation 
numbers, but the improvement in graduation?
    Mr. Bennett. Yes, sir.
    Mr. Hunter. Okay.
    Mr. Mitchell. And we have seen examples across the 
country--Mastery public schools in Philadelphia--that have 
achieved dramatic turnaround in one and 2-year periods, turning 
around those lowest performing schools, those dropout 
factories. It can be done.
    Mr. Hunter. Doing what, sir?
    Mr. Mitchell. So in this case, the public charter school 
environment, so very different rules and regulations regarding 
the deployment of human capital and talent. But the creation 
of--as we have talked about before--extremely high 
expectations, no excuses for adults or kids, the development of 
a strong program with rigorous assessment and continuous 
feedback.
    Ms. Keegan. Just a comment, Mr. Hunter, about those 
schools, the Mastery schools in Philadelphia. When you 
interview the students and you listen to them, that is probably 
the most illustrative thing you can do is to talk to a set of 
kids who didn't change, who stayed in place and all the adults 
changed. And their life changed.
    And it is a lovely, lovely story that is going on there in 
Philadelphia. And that is just one example. There is thousands 
of those across the country. But that one is really--that is a 
great example.
    Mr. Hunter. And you have all named different programs that 
you have used or seen used to bring schools out of that funk, 
whether it is public charter schools or the incentivized 
program to have a higher graduation percentage. So do you--when 
you look at OSP or you look at competitive grants, do you see 
either of those working better in certain areas? Or is it one 
of those things where you suggest leave it to the local school 
districts?
    Mr. Mitchell. Yes.
    Mr. Hunter. Let the states and the school district choose 
which one of those things would work better for them.
    Mr. Mitchell. Yes. And to that, those tools, the open 
enrollment and parent choice for alternatives to be created for 
the kids in those schools.
    Mr. Hunter. Thank you all.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Kline. I thank the gentleman. I don't think I have 
ever seen a simultaneous nod by all the panelists quite like 
that one.
    Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    Thank you to this panel. Far too many of our nation's 
children go to school hungry or without proper medical care. 
Some come from unsafe homes, have to walk through unsafe 
neighborhoods. Many students don't have someone to help them 
with their homework at home or a place to go after school, 
actually.
    I believe that schools and communities need to be able to 
offer support services to children and their families so that 
children are ready to learn--and that is the operative word 
here--when they enter the classroom. Otherwise, how can a 
teacher be effective if their student body is not ready to 
learn?
    And so, my question is--and we will start with you, Mr. 
Mitchell. What are your views about the relationship between 
academic achievement and ensuring that children are healthy, 
well-fed and safe, in other words, ready to learn when they 
enter the classroom? And should we strive for a common 
standard, possibly a federal standard, to provide these 
services, but regardless of what school a child attends?
    Mr. Mitchell. So clearly, a child who comes to school 
hungry and with aching teeth and serious family problems is 
going to be less able to attend to the academic enterprise than 
the student who comes well-fed, cheery and well-scrubbed. There 
is no question.
    Ms. Woolsey. Right.
    Mr. Mitchell. And we need to address that. And I think that 
Mr. Miller spoke eloquently about it a while ago. I think that 
a part of the issue that those kids face is a multiplicity of 
social service agencies, that are not at all connected to each 
other, to create the environment in which kids are ready to 
learn. So I would say that the first imperative is to work 
across the silos of public service to help those kids.
    The second thing----
    Ms. Woolsey. Can I ask you a question while you are there?
    Mr. Mitchell. Please.
    Ms. Woolsey. How do you see bringing those services to the 
school site where parents and children, everybody--it becomes a 
common ground? Do you see that a logical place to provide these 
services?
    Mr. Mitchell. I do. I think that that is one option. I 
think that the theme that I think we are all pushing is that 
that is not a silver bullet. I think that that is one approach, 
communities in which the social service agencies work together 
in their own areas, but use a common data system, for example, 
well-protected to protect students' rights, but to be able to 
create a case map of kids.
    In the schools where we work, it is no surprise that 
extending the school day and providing some of those kinds of 
supports, but also the extended safe period for kids, has 
become one of the trends that no one prescribed, but it has 
just grown up over time. And the research on extended learning 
time that is growing, first out of Massachusetts and now in 
other states, is quite compelling, that extended learning time 
can go a long way to addressing many of those needs.
    Ms. Woolsey. So other thoughts----
    Mr. Coulson. Yes.
    Ms. Woolsey [continuing]. On being ready to learn when you 
enter the classroom?
    Mr. Coulson. As you may have guessed from all the charts in 
my presentation, I am an engineer. My first career was in 
software engineering. But I am going to break with tradition 
here and tell you an anecdote, which may get me kicked out of 
my geek clubs.
    But I have a friend I have grown to really love over the 
years who turned around a charter school in California. His 
name is Ben Chaves. And he now has 3 charter schools that he 
runs. And there are 2 others that follow the same model.
    In his charter schools, about 90 percent of kids qualify 
for free and reduced-price lunches. He doesn't have a 
lunchroom. He doesn't participate in the Title I program 
because he doesn't serve lunch.
    And some children will come to him at the beginning of the 
school year, and they will say, well, you know, I can't bring a 
lunch. And so, he tells them, ``Well, you can either bring a 
lunch, or there is a restaurant just 2 blocks from the school 
that will make a lunch for you every morning if you just go 
there and work for a couple hours washing dishes on Saturday 
morning.'' He has never had a child take him up on that.
    All of his kids do bring lunches. And now, this sounds 
Draconian. I know it sounds Draconian. And the only reason I 
think he was able to do it was that he grew up an often 
shoeless child of sharecroppers among a community of Native 
American Indians in North Carolina in absolute poverty.
    Ms. Woolsey. Well, how old are these children that have to 
go----
    Mr. Coulson. This is a middle school.
    Ms. Woolsey. Well, how old are they?
    Mr. Coulson. This is a middle school. And let me just 
finish the anecdote--just to say this is the highest performing 
middle school in the entire state of California. It went from 
the worst school in Oakland in 2001 to the highest performing 
middle school in the entire state by 2007 and is still ranked 
near the top.
    Mr. Bennett. Ms. Woolsey, if I may--and I am going to kind 
of go with, kind of, what Andrew--I will get kicked out of the 
hard and tough club on this one. But, you know, I want to--
first, we have some school corporations in our state that have 
actually put health clinics, they have partnered with 
hospitals, immediate care centers, different social service 
organizations to provide these services for children.
    And what this comes down to, in my opinion, are courageous 
leaders who say, what is our core mission, and how are we going 
to drive resources to that core mission. So, you know, we have 
to make tough decisions. This goes to that statement about 
marrying fiscal policy and education policy.
    We have to put our money into the things that are going to 
drive results. And these school corporations that have done 
this around the state of Indiana have had to make tough fiscal 
decisions to provide these services for children, but they have 
made a difference in the lives of those children.
    Chairman Kline. The gentlelady's time has expired.
    Dr. Roe?
    Mr. Roe. Well, Dr. Bennett, welcome back. And thanks to 
this great panel. You all have been fantastic.
    And there is not anybody--and, Mr. Coulson, I want to point 
out that line that you showed that was going--I did not 
contribute to that. [Laughter.]
    And everyone in this room on both sides of the aisle--I 
mean, there is not anyone sitting in this room that doesn't 
want the best for our students and our kids. And we want that. 
And we need that as a nation.
    And, Ms. Keegan, I am going to ask you and Dr. Bennett--you 
all hit on it--and anybody can answer, if they want to--about 
how do we retain our quality teachers. I am a product of the 
public school system. The first school I went to had 2 rooms, 6 
grades, 2 rooms and one teacher, a phenomenal teacher, Ms. 
Clark. I still remember her to this day.
    And I absolutely believe that is a centerpiece, and you 
said that. And we have now got as many clipboard carriers as we 
do classroom teachers, almost, in our schools any more.
    So 50 percent of the young people that enter--that are 
going to be teachers never become teachers. And 50 percent of 
them, after 5 years, quit. How do we retain these folks?
    Ms. Keegan. I think, first and foremost, we recruit from 
the top of universities for our teachers. I mean, teachers 
always loved schools. I mean, you have got to seek the geek. 
They love academics. They loved school. They had their hand up 
in the classroom. They wanted to be there.
    What we know about achievement is the one thing we can 
relate it to is the SAT score of a teacher. And so, it is 
important that we do that. But I think, secondly and most 
importantly, we give them the liberty to leave. Because when 
you recruit from the top like that, you are recruiting people 
who have always sought to be the very best.
    And when they go into environments where they don't have 
the liberty to work the hours that it takes to come up with 
programs they would like to install, to take leadership because 
of what they do that is effective and not because they just 
lived long enough, they get thwarted, our best. And 
fortunately, right now what happens is they go around and they 
end-run. And we have given them the opportunity to do that. And 
they usually go start a school.
    But we have to make sure that we leave teachers at the 
center of this enterprise. And, as Mr. Mitchell said, there is 
no place in this system for somebody who doesn't want to work 
the hours that it takes in this day and age when we have a huge 
problem, we need all of that incredible passion that comes to 
bear in great teaching. And we just can't keep thwarting them 
with regulations that are calcified and just wear them out.
    Mr. Roe. I have a lot of patients as teachers and had an 
opportunity--my wife taught in an inner city school in Memphis 
when I was there in medical school. And then we moved to a 
community where every child's parent had a college education. 
Well, those all looked like good teachers because all the kids 
did well, because, guess what? The parents insisted on the fact 
that their kids learn.
    They read to them. They did all those things. So I see 
teachers, good teachers in schools where they don't get to--you 
know, they don't get to pick who their students are. For 
instance, I--to me, the most distressing piece of testimony I 
have heard since I have been in this Congress is that 3 out of 
4 kids dropped out of school in Detroit, Michigan. That is 
heartbreaking when you hear that. That is a failed city. And 
that is a failure we can't live with as a nation.
    Mr. Bennett. Mr. Roe, if I may, I think it is a very--I 
have a lot of passion about this because now I am going to go 
back to my hard and tough position. We have situations in our 
state--and I am just going to tell you a very quick clause of a 
union contract that exists in Indiana.
    If you and I were hired on the same day to teach fifth 
grade in this school corporation in Indiana and we had to 
reduce the budget and they had to make a decision which one of 
us leaves, they add up the last 4 digits of our Social Security 
number. And the person with the highest sum gets to stay. That 
is why we are recommending, as part of our legislative package, 
that teacher contracts be limited to wages and wage-related 
fringe benefits so that we can start recognizing and rewarding 
our greatest teachers.
    I think the saddest thing about education is the happiest 
financial day in an educator's life is the day they walk out 
the door. And that is wrong. So we have to build a structure 
that allows us to recognize and reward the greatest teachers 
that we have.
    Today is my triplets' 25th birthday. I called them this 
morning and wished them Happy Birthday, told them where I was 
going and what I was doing. And I said, ``What would you say?'' 
And they said, Dad--you know, my son said, Ms. Barley was the 
greatest teacher I ever had. Trish said, you know, Dad, Ms. 
Beaton was the greatest teacher I ever had. And you know, what?
    Those 2 teachers should have made $100,000. And it is a 
shame we have a situation where collective bargaining 
agreements are there for the benefits of adults and not to 
upheld the learning of children.
    Mr. Roe. I hope you called your wife this morning, too.
    Mr. Bennett. She was fourth.
    Mr. Roe. And just one last question, very quickly, to Mr. 
Mitchell. And I have heard this bantered around. I don't know 
whether it is true or not, that in California, there are as 
many administrators as there are classroom teachers in the 
education system.
    Mr. Mitchell. I don't know the answer to that. But I would 
be happy to find out.
    Mr. Roe. I hope it is not true.
    But thank you, panel.
    I yield back my time.
    Mr. Mitchell. I will find out--just school board staff. 
That is the----
    Chairman Kline. All right.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    As we focus on evidence-based educational reform, there are 
2 areas where there is a lot of evidence that these are the 
areas that truly will make a change in a student's ability to 
succeed in school and in life. One of these areas is quality 
early education. And there is a lot of evidence to say that 
every dollar we spend on quality early education will not only 
enable that student to succeed in school and in life, but it 
really gives back to us many times fold in terms of dollars.
    So, Dr. Bennett, you did not mention early education, the 
quality early education as important. Do you consider it to be 
a foundational aspect of a child's education?
    Mr. Bennett. Yes, I do. And I would tell you, sadly, that 
Indiana ranks fairly low in terms of our full-day kindergarten 
and pre-school early childhood education.
    I do think that it is very important, though--two things I 
think I need to say. First, it is very important that we don't 
see that as a silver bullet. You know? Because again, I think 
we have gotten into this thing that we have to keep pushing 
down the responsibility of when kids get ready. And I don't 
think that just pre-school or early childhood education is 
going to fix the current system we have.
    Ms. Hirono. I completely agree with you because there is no 
silver bullet to anything. We have to do a range of things. But 
this is one that there is a lot of evidence to show that it is 
important. So if the federal government were to provide, for 
example, grants--because every state is in a different place in 
terms of support of quality early education. If the federal 
government were to provide grants to encourage states to move 
toward providing quality early education, would you consider 
that to be a helpful thing for the federal government to do?
    Mr. Bennett. Depending on how it was structured, yes.
    Ms. Hirono. Well, leaving it to the local entities, by the 
way, not for the federal government to prescribe what quality 
early education should be, except in the more--in the most 
general ways. You would find that helpful?
    Mr. Bennett. I could see that as positive.
    Ms. Hirono. Dr. Mitchell, would you agree that quality 
education should be something that the federal government 
should provide some support for?
    Mr. Mitchell. I think that that support would be helpful. 
But I think that the word that is complicated in that is 
quality. Because I think at the--just at the time when we are 
beginning to develop real transparency around the outcomes that 
we want and then giving local agencies and organizations the 
freedom to pursue those outcomes--I would hate us to then move 
into an early education environment without a clear set of 
outcomes.
    Ms. Hirono. I agree with you. Just as we are wrestling with 
what makes for an effective teacher, that there should be some 
kind of, you know----
    Mr. Mitchell. Right.
    Ms. Hirono [continuing]. Quantitative way to do that, to 
ensure quality. So that gets me to the other area where 
evidence shows that the teacher standing in front of that 
classroom is the single most important person affecting student 
learning. So the effectiveness of that teacher is really 
important. And as we struggle with what makes for an effective 
teacher, there is not a lot of science behind what makes for an 
effective teacher.
    And so, I wanted to ask Dr. Bennett, you seem to already 
have moved toward doing an assessment of your teachers based on 
effectiveness. And I wanted to ask you, what exactly goes into 
whether or not a teacher--where that teacher ranks on the 
effective/ineffective scale.
    Mr. Bennett. Well, first, we have a model that we took a 
great deal of national research--Charlotte Danielson, a number 
of others, you know, education experts in the field of teacher 
evaluation--and we have developed a model. But I want to be 
clear that the state is not going to prescribe that.
    You know, we are going to set some guidelines and 
guardrails: student engagement, student growth. You can use 
growth on--you may use other standardized tests: ACT, SAT. And 
then there will be a number of subjective: the principal 
evaluation.
    It could be peer review. It could be parent survey, student 
survey. So we are going to--we would like, at the state level, 
to offer our local school corporations, school districts a menu 
of guidelines and guardrails to build their evaluation systems 
so that, again, we can take those and spread those best 
practices statewide.
    Ms. Hirono. So have any of your school corporations 
implemented your--any part of your model for effectiveness 
ranking?
    Mr. Bennett. We are on, like, the ninth iteration, ma'am, 
of the model where we have gotten input from educators. We have 
a couple of school corporations who are piloting this. We don't 
have any data back yet. But again, this is all in proposed 
legislation right now. So we are hoping to have that in the 
years to come out of the legislative agenda.
    Ms. Hirono. I think the effectiveness evaluation--we have 
to get that right also. And so, I commend you for your efforts.
    Part of the effectiveness of teachers, though, is 
preparation. And, Dr. Mitchell, I think your testimony alluded 
to the importance of teacher preparation. So can you talk a 
little bit more about what should go into teacher preparation? 
Because, you know, I think one of the criticisms is that a lot 
of the education--the teacher schools, I guess, teacher 
training schools, are really back in the 20th century. So----
    Chairman Kline. I am sorry. The gentlelady's time has 
expired. And I am afraid that answer might be a little bit 
long.
    Mr. Rokita, you are recognized.
    Mr. Rokita. Thank you, Mr. Chairman.
    I appreciate the witnesses' time today. You all seem--as I 
read your testimony and heard you answer questions, I am 
inspired. I am motivated. I am appreciative that you are in the 
education system helping our nation's children.
    I especially want to recognize my friend from Indiana, Tony 
Bennett. In previous service, I was Indiana's secretary of 
state. So I had an opportunity to work a lot with Tony.
    I also want to say thank you to Tony on behalf of my kids, 
Teddy, who is 3, Ryan, who is 1--as a result of your and 
others' efforts, you know, my kids, have a chance to go to a 
public school. And the money that Kathy and I are currently 
saving, otherwise we might be able to use for something else. I 
thank you as well.
    Tony, you and I have talked about this fact. We both talk 
about it everywhere we go in the state, that schools should be 
for the kids, that not necessarily--they shouldn't necessarily 
be for the janitors, the janitor's union or even the teachers 
union. They have got to be for the kids if we are going to be 
competitive in the 21st century.
    Having said all that, I would still argue that education is 
this country's and our state's second biggest problem. And you 
all alluded to that a little bit earlier when you talked about 
what kids needed in schools.
    As secretary of state, we adopted school 54, an 
Indianapolis public school. And I would send our attorneys, and 
I would--we would go to read and participate in after-school 
events with them. And what I learned there was that it is very 
hard for a teacher, it is very hard for a school system to do 
their job when a lot of the children have no structure at home. 
They barely have a home.
    They might fall asleep on the couch watching TV at 2 in the 
morning. They may then have to go to school without a coat the 
next day. And we expect the system, and we expect these 
teachers to then educate.
    And some of the answers I heard you say earlier to this, 
kind of, problem were multiplicity and social services and 
breaking down the silo, longer school hours. And I would like 
each of you, maybe starting with Tony, to tell me if there is a 
way for us to use the school system, remembering that it is for 
the kids first, to help build the family, to help maintain the 
family or rebuild the family, rather than trying to supplant 
the family or take up the vacuum where the family should be, 
because I think disintegration of our families is actually this 
country's biggest problem.
    Mr. Bennett. And, Mr. Rokita, first, thanks for your 
service to the state of Indiana. It was wonderful to serve with 
you. And you were a beacon of leadership in our state.
    But I also want to say something that Dr. Mitchell talked 
about. Good schools, great schools have positive feedback 
loops. That is something I think, we all see in schools where 
we work and serve.
    When schools operate at a culture of very high 
expectations, the adults in the schools accept no excuses--and, 
again, we--I worked with a very talented principal by the name 
of Sheila Rohr in a very impoverished school in New Albany, 
Indiana, who got in her car and went to pick up parents to come 
to parent/teacher conferences. Okay? She says you must attend. 
We need you.
    Now, those are very difficult things to do. But you know 
what? Those schools generate a positive feedback loop. The 
students succeed. The parents want to be involved. The parents 
want to be involved. The students succeed more.
    But I think, again, it starts with us as state leaders 
developing a culture that every school in the state must attain 
at the highest level. And we have to do whatever it takes to 
make that happen. So I think that is how you support the 
family, is by having great schools that accept nothing but the 
best from their students, who will then go home and influence 
the family to be involved.
    Ms. Keegan. Okay, it is such a great question. And I would 
really encourage--we should give you as many examples as we 
can. There are so many schools that have figured that problem 
out. And it isn't easy, but they do it over and over and over 
again. There are brands of schools, uncommon schools, the KIPP 
schools. There are little private----
    Mr. Rokita. KIPP Schools--I was going to mention.
    Ms. Keegan. Yes.
    Mr. Rokita. They have a tripartite contract of some sort 
that brings the parents in.
    Ms. Keegan. They do. They do. And that is a feature of 
almost all of these schools. Because where kids and families 
have not had the kind of structure that comes so naturally to 
families who have had it for generations, it is not that they 
can't get it or don't want it. I have seen in urban communities 
little, tiny private schools where families are actually 
paying, like, $3,000 a year, and they get together around a 
church, and they learn how to do that.
    So the schools themselves--it is all about the leaders in 
that school. And, as Dr. Bennett says, a commitment to get it 
right. And what I hope we do is inspire people to believe it 
can happen. Because you only do what you think is possible. And 
teachers in a classroom sometimes get to feeling like they are 
oppressed by this system and it can't be done. It can be done.
    And so, contact one of us and just ask us where it is 
getting done if you find a school that is not doing it. And we 
will find a peer to them, I guarantee you, same constituent 
students, same socioeconomics, whatever it is, and we can match 
them with a school that is just knocking it out of the park.
    Mr. Rokita. Right.
    Chairman Kline. Thank you. The gentleman's time has 
expired.
    Mr. Miller has a second question he would like to ask.
    Mr. Miller. Thank you. I think there may be a question, but 
just a couple of comments on this panel because I started out 
with a very broad question.
    But first of all, I want to say this to Dr. Bennett. When 
you mentioned that you got your data system from Colorado, I 
want to say thank you because I understand that is also a huge 
savings in money that you didn't think you had to do it from 
the beginning, that you could build on what they had done--I 
know they have made that offer to my state.
    I don't know if they accepted it or not. But they made an 
offer to a lot of states that they had a system that was--that 
others could use. So thank you. Nice to see 2 states working 
together. [Laughter.]
    I asked the question in the beginning about flexibility and 
accountability. And it seems to me, when I listen to the 
comments and the answers to the questions and the questions by 
the members, that a lot of this becomes very possible if, in 
fact, we do have a growth model--that we do have an 
accountability system that is real, that has real measurable 
goals and purposes to it, that it is not growth to nowhere, as 
my state tried for a couple years a while ago, and that it is 
inclusive, obviously, of the entire student body, that it is 
inclusive of all of the students that we have a responsibility 
to.
    At that point, if it is a performance-driven system, then I 
think there is some comfort level at the federal level that we 
are meeting our mandate under this, what is considered, 
obviously, a basic civil rights law in the ESEA. I was saying 
the question of choice that is clearly very prevalent now that 
wasn't prevalent then. And it is in many different forms, many, 
many different forms, as I said, from the Internet to private 
or a charter school, if you will.
    I don't know what the level of intensity is. But we have to 
be cognizant that these are big--that these are very mixed 
districts and states, as Senator Enzi will remind us over and 
over. There is no real other choice in rural Wyoming.
    But there are options for rural Wyoming--and that we not 
start getting on our high horse about one or the other and 
suggest that the federal government should pick those, but 
understanding that this student population should move across 
the range of options, and parents and others have that 
available to them.
    I also think it is becoming clear, listening to 
conversation over the last couple of years, that it would be 
hard to think that you are going to have an ESEA bill that 
doesn't have something about evaluations in it. But I also 
think it is going to have to be evaluations that evolve.
    I think it has to be about evaluations that are inclusive, 
that have partners, that have skin in the game, we like to say. 
The entrepreneurs--this is about skin in the game, where 
teachers have got to have skin in the game. They have to have 
say in the game. They have to have stakes and outcomes.
    So we already see some large districts that have headed 
down that road and put these in place, whether it is in 
Connecticut or Colorado or elsewhere or Illinois. But I think 
at the federal level, again, we have to be prepared that this 
is on a continuous improvement model. It is not all going to 
happen the first year. It is not all going to happen the second 
year.
    As you point out, you are on your ninth iteration of this. 
And I assume that means that you have to acknowledge, again, 
the buy-in, the participation, the commitment, the skin, the 
stakes by all of the parties, certainly, within the district. 
But I would say at that site.
    Because I go back to as I started this question, I look at 
some of these large--and I am from a more or less urban/
suburban population. I look at the partnerships and the options 
that have to be created.
    You mentioned the health--it is critical in some of these 
neighborhoods. There is no other access, except a real long 
ride to the hospital. But the county health systems and the 
public health systems believe they are getting a huge advantage 
by partnering with these schools--so those kinds of options.
    So I think this panel has been very helpful, Mr. Chairman. 
And I want to thank you for the hearing.
    These are big, tough issues. A lot of them have really long 
tails in the Congress of the United States. But I also think 
that there are a lot of pathways that have been developed over 
the lifespan of No Child Left Behind. But, again, as I started 
out, it is clearly time to move on. And it is clearly time to 
take that data and see what we can do to help empower states 
and districts to take advantage of it.
    Because the examples of success with the exact population 
that we lament, and we express our concerns for, are so 
compelling now and numerous. Not enough--you know, this is a 
huge nation. And we are talking about 1 percent of the students 
who are involved in many of these options.
    But they tell us what is possible. And we have to be about 
enabling what is possible with this. But I will always go back 
to the idea that is based on the foundation of accountability 
because I sat on this committee for 20 years where those 
outcomes were hidden.
    We changed tests at the state level every 2 or 3 years. We 
changed superintendents every 2 or 3 years. We changed--you 
know? And parents were at sea. The minute they were published 
in the newspaper for the first time, parents got an idea of 
what the hell was going on. And they started becoming 
interested in this.
    So thank you very much for participating with the 
committee.
    Thank you, Mr. Chairman, for putting this panel together.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman. And I would associate 
my comments with previous chairman, Mr. Miller, on this. This 
is an exceptional, exceptional hearing.
    And, frankly, it is worth all the work in coming back after 
my involuntary layoff, coming back to this committee to hear 
what is going on here. Because, frankly, nothing gets my 
excitement juices flowing more than hearing excitement about 
educating our young people.
    Being a parent who had the opportunity, but because I took 
it, to use all sorts of approaches in educating my own 3 
children. Whether it was public school, private school, 
homeschool, vocational school, I saw the benefits of having 
teachers and administrators who were committed to my kids, 
meeting them where they were at and educating them to their 
fullest potential, to see my daughter, who academically was not 
as gifted. And she would admit that--as her two brothers, but 
has gone beyond them in academic achievement in her field, even 
into graduate studies, because teachers had the opportunity to 
do what they do best in educating my child.
    So I would like to ask a question. And that is in light, as 
well, Mr. Coulson, of you just making me angry when you showed 
this chart, to think of what has been lost in educating young 
people over those years, with huge expenditures that, frankly, 
have been wasted, if these statistics are right. More than 
wasted, they have been abused, to our regret and our expense 
and our kids' future and advancement of this country.
    But let me ask this question. And any and all could jump 
in. But I ask Mr. Coulson, you first. And, keeping in mind an 
underlying concern that I want you to color your answer with, 
if you would, please. What is the most effective place for the 
federal government in education? And I am willing to hear, 
``Stay out,'' if that is what you are feeling.
    You mentioned that we have spent $151,000 per student for a 
graduating class of 2009, which is nearly 3 times that of what 
we spent for those in 1970. This increase resulted, if 
statistics are accurate, in decreased student achievement.
    Is there any other issue area where we see these alarming 
numbers as well? And what would you recommend we could do to 
change this trend?
    Mr. Coulson. My answer on what the federal government can 
do is, obviously, constrained somewhat by my view of the 
constitutional limits of its role. But really, in practice, it 
is not. We have seen $2 trillion worth of federal programs 
produce essentially no result in either gap narrowing or 
overall achievement. And so, another federal program is not 
likely to do any better than this 45-year history, with the 
striking exception of the opportunity scholarships program.
    And this is a really interesting situation because around 
the country, there is growing bipartisanship in support for 
school choice programs just like the opportunity scholarships 
program. But there is still some considerable resistance to 
these programs, some political resistance, some entrenched 
opposition.
    If Congress can get together and in a bipartisan way extend 
that program and grow that program, the impact that it would 
have on the ability of state legislators to produce similar 
programs, similar legislation would be enormous. So for 
Congress to show that it so values this program and what it is 
achieving, despite the partisan differences that may exist over 
it, for obvious reasons, I think that would be a beacon to the 
nation that would have a lasting and dramatic effect improving 
education in this country.
    Mr. Bennett. Mr. Walberg, if I may, I would say--I would 
suggest that, again, we do live in a national and an 
international society. So to just say that, you know, states 
are--have done a good job of setting their own standards to 
help kids be competitive in a global economy--it is folks like 
me that haven't held up their end of the bargain. We haven't 
held schools accountable.
    But I want to answer your question directly. I would like 
to see the federal government work with states as we want to 
work with our local school corporations. Set the bar high. Set 
incredibly high expectations. Put guardrails in place to ensure 
quality. Enforce strict accountability. If we don't do the job, 
don't give us money.
    Give states the flexibility, just like we want to give the 
locals the flexibility, to achieve the goals. And then the last 
thing is please get out of our way.
    Mr. Mitchell. So let me build on that. I agree. High bar, 
transparency, especially around kids who have traditionally 
been failed by the systems, resources that are tied to results, 
but are flexible to states and from states to local districts.
    And what I would add would be support innovation because 
innovation is a brave act, whether it is political innovation 
or creating new ideas and new enterprises that help kids. It is 
a brave act that needs to be supported politically and 
financially.
    Chairman Kline. The gentleman's time has expired.
    I am sorry, Ms. Keegan.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thanks to the panel for your expertise on this very 
important issue we are looking at today.
    You know, as I look at the competitiveness of this nation, 
the key factor of our succeeding in the future is the 
competitive workforce. It is a qualified workforce. It is about 
preparing our youth to take those roles--and whatever walk of 
life where they are--wherever they are led and wherever they 
go. And so, this is such an important topic today.
    Dr. Bennett, in your testimony, you highlight Indiana's 
education agenda, putting students first. How do the 3 colors 
of the state's agenda work towards improving student access in 
either college or the workforce?
    Mr. Bennett. Well, first, the first issue is obviously, 
teacher and principal quality, the ability to make sure that 
the folks who are leading our schools and teaching our kids are 
of the highest quality and delivering the best quality 
instruction based on standards that make them college or 
career-ready. Two, it is to give the local school corporations 
the flexibility they need to innovate, as Mr.--as Dr. Mitchell 
mentioned, but holding them accountable so that kids from Gary 
get equal educational opportunities that kids in Evansville 
get.
    And finally, to give all children options. You have heard 
this. This has been a theme among this panel: charter options, 
private school options. We are big--and I think Indiana has 
proven this in the last 2 years in tough budget times. We have 
increased our state's standardized test scores, increased 
graduation rate and increased A.P. participation and success. 
Okay?
    So I only say that because competition in the system and 
accountability in the system and freedom in the system have 
worked. And that is how we are going to drive more success 
among our children, is to put those 3 factors into an education 
system and make it work.
    Mr. Thompson. Well, I certainly agree with you. I think 
those are principles that have worked in every industry in 
terms of success, ultimately. You had mentioned about equality, 
an issue I look at very closely. I represent a very rural 
district. And Indiana, I think, demographically is a lot like 
Pennsylvania, very similar.
    I was just interested in your observation of this. There is 
a tremendous discrepancy in terms of the amount of dollars that 
comes in for students in different school districts. And I see 
discrepancies between, certainly, rural schools and urban 
schools, but even between different urban schools.
    And some of the issues I have kind of come up against--I 
served a number of years on a school board. Education was very 
important to me, even with competitive grants, that rural 
school districts don't tend to have the resources to have the 
grant writers. And so, I liked anything with the word 
competition in it. But competitive grants don't tend to be 
competitive because they tend to be slanted towards larger 
districts with resources.
    The people are dedicated to pursuing and chasing those 
dollars. Even formula funding is--I find, is biased towards 
large schools, not necessarily large schools that have a high 
percentages of these children and significant discrepancies in 
dollars. And I am not talking about spending more money. I am 
talking about how the money is distributed currently. Any 
observations in that area?
    Mr. Bennett. Well, first, I am going to go back to the 
comment I made earlier. And I think this is something we have 
failed at the federal level. And I think, probably if you asked 
50 state leaders, they would say we failed at the state level.
    And that--you know--and I will use Indiana. On April 29th 
at the eleventh hour, when our general assembly is about to 
end, as I sometimes say, the smoke will come out of the 
chimney, and 12 people will emerge from the fourth floor office 
and say, ``We know how to fund education.''
    And during this same time, we have had 12 people in another 
room talking about education policy. And they don't ever put 
those 2 things together. We have never married fiscal policy 
and education policy. And I think when we afford rural schools 
the opportunity to build collaborative so that they are not 
applying by themselves, they compete.
    And I think we have to start looking at education. Whether 
it is school choice, whether it is evaluation pay, we have to 
have the courage to marry fiscal policy and education policy. 
And we haven't done that because we always try to minimize the 
losers. And we have to say in a system that competes, sometimes 
people will fall short.
    Mr. Thompson. Very good. Well, I think my time is about 
done, so I will yield back the few seconds remaining.
    Chairman Kline. I thank the gentleman.
    Mrs. Biggert, you are recognized.
    Mrs. Biggert. Thank you, Mr. Chairman.
    And I am sorry I missed all of your testimony. I also have 
a markup in another committee. But I did want to come and at 
least hear some of your expertise.
    I was wondering about the Race to the Top and how--maybe, 
Dr. Bennett, particularly you. I understand that you turned it 
down. Is that correct?
    Mr. Bennett. We chose not to participate in round 2.
    Mrs. Biggert. Right. And I am from Illinois. And so, we had 
participated in both the round one and round 2 and did not 
receive it. But there were--and I don't think that this 
committee really had the opportunity to really have hearings on 
this or before this program came from the Department of 
Education and from the top down. And we never really had 
anything to do with it before it came into effect.
    I would like to know, maybe, why you turned it down or--
because we are always hearing, well, this Race to the Top is, 
kind of, now the template for the reauthorization of the K-12. 
How does that fit into this program? Have any of you worked 
with it? Or how effective is it going to be to help with our 
reauthorization?
    Mr. Bennett. Well, I will speak very quickly to why we did 
not participate. And I don't want to be--I don't want to sound 
boastful. But I do believe that at the end of this thing, 
Indiana will be a state that will get to the top without 
accepting the Race to the Top money and the strings that were 
attached.
    For Indiana, it was a decision that it is much easier for 
me as a state leader to work with our general assembly, our 
courageous governor to initiate the type of reforms that, 
frankly, Race to the Top talked about than it was to prove to 
the federal government we could implement those reforms.
    Mrs. Biggert. Thank you.
    Anybody else have any comments?
    Mr. Coulson. Yes, I would just like to make a very brief 
comment, which is that the idea behind Race to the Top, one of 
the core ideas of it, is excellent, which is having competition 
in order to satisfy a customer. And there being financial 
rewards for people who do a good job of satisfying the customer 
and no financial reward for those who aren't good. The only 
problem with Race to the Top is that the customer is the 
administration of the federal government instead of families.
    A system in which families are the customer and schools are 
competing to serve them is well-proven by research, both 
domestically and internationally, as a great system for 
improving educational outcomes and efficiency. Having states 
compete to serve the federal government is not a proven way of 
improving education.
    Mr. Mitchell. Can I dive in? Because I want to express 
solidarity as a 2-time loser ourselves in Race to the Top. 
[Laughter.]
    And I want to juxtapose 3 of us. I want to juxtapose Dr. 
Bennett's experience with ours in California. And Ms. Keegan 
and I both talked while you were off at the markup--talked 
about one of the important roles the federal government can 
play is in providing the kinds of incentives that make the 
politics different.
    Indiana is a wonderful example of a state in which, thanks 
to Dr. Bennett's leadership and the leadership of others, the 
reforms that he has been talking about today could move forward 
on their own. I am sorry to say that California was not one of 
those states.
    And yet, the leverage of Race to the Top, the creating the 
competition with some guardrails around it broke open some of 
the most extraordinary reform policies in the last 25 years in 
the state: the original parent trigger legislation allowing 
parents to charter schools, open enrollment in failing schools, 
the ability for the first time to connect the teacher database 
with the student performance database.
    Those would not have happened in our state without the 
federal government's incentive for us to move in that 
direction. It is that kind of political cover that I was 
talking about earlier that at times unlocks the gridlock that 
ultimately hurts kids.
    Ms. Keegan. It does, I think, have to do with the politics 
of the local state. And I would say that what happened in Race 
to the Top is that there were a lot more changes before dollar 
one was ever spent because there was a lot of shovel-ready 
policies sitting around that couldn't get shoveled through 
because of the national organization opposition to it. And all 
of a sudden, it got pushed through.
    Now, whether at the end of the day, that continues to be a 
great idea or, you know, should government always be in this 
role at the federal government is--I think that is going to 
play out over time as those dollars actually get spent. But 
there is no question that dangling it out there pushed through 
a lot of great ideas that couldn't otherwise go through. 
Hopefully, states will do them anyway.
    Mr. Bennett. Mrs. Biggert, I would also add, if I could, 
the one thing that--I would applaud the concept of Race to the 
Top is it was a great example of marrying a fiscal policy 
decision and an education policy decision. There were 4 big 
policy issues in Race to the Top. And there was money to those 
4 policy issues.
    So I think it was a great example of that. It was just, as 
Ms. Keegan mentioned, the politics of our state afforded us the 
opportunity to move without it.
    Mrs. Biggert. Thank you.
    Thank you. My time has expired.
    Chairman Kline. I thank the gentlelady.
    I thank the witnesses. It has been an extraordinary panel 
and a fantastic hearing. Every once in a while, I just luck 
into one. But this has been absolutely terrific.
    I yield to Mr. Miller for any closing remarks he might 
have.
    Mr. Miller. Just thank you again, Mr. Chairman, for the 
hearing.
    Chairman Kline. Okay.
    Again, extending my thanks to everybody in the room and to 
my colleagues, but particularly to the extraordinary panel. I 
thank you very much. There being no further business, the 
committee stands adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
